DoD OIG Report No. DODIG-2012-072   DOI OIG Report No. ER-IN-NBC-0001-2011



            A JOINT AUDIT BY THE INSPECTORS GENERAL OF 
               U.S. DEPARTMENT OF THE INTERIOR AND 
                    U.S. DEPARTMENT of DEFENSE 




       DoD’s  FY 2010 Purchases Made Through the 
                Department of the Interior 




                                                       April 13, 2012
 Additional Copies
 To obtain additional copies of this report, visit the Web site of the Department of Defense
 Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
 Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

 Suggestions for Audits
 To suggest or request audits, contact the Office of the Deputy Inspector General for
 Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       4800 Mark Center Drive (13F25-04)
                       Alexandria, VA 22350-1500




 Acronyms and Abbreviations
 AQD                           Acquisition Services Directorate
 DARPA                         Defense Advanced Research Projects Agency
 DoD FMR                       DoD Financial Management Regulation
 DOI                           Department of the Interior
 FAR                           Federal Acquisition Regulation
 GAO                           Government Accountability Office
 GSA                           General Services Administration
 IGCE                          Independent Government Cost Estimate
 MIPR                          Military Interdepartmental Purchase Request
 NASA                          National Aeronautics and Space Administration
 O&M                           Operation and Maintenance
 U.S.C.                        United States Code
 USD AT&L                      Under Secretary of Defense for Acquisition, Technology,
                                 and Logistics



All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
             Department of Defense                Department of the Interior
             4800 Mark Center Drive               MS4428 - MIB
             Alexandria, Virginia 22350-1500      1849 C Street, NW
                                                  Washington, DC 20240



                                                                           April 13, 2012

 MEMORANDUM FOR SECRETARY OF THE INTERIOR
                UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
                UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                  CHIEF FINANCIAL OFFICER
                ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
                NAVAL INSPECTOR GENERAL
                AUDITOR GENERAL, DEPARTMENT OF THE ARMY

 SUBJECT: DoD’s FY 2010 Purchases Made Through the Department of the Interior
          (DoD Report No. DODIG-2012-072)
          (DOI Report No. ER-IN-NBC-0001-2011)

 We are providing this report for review and comment. We considered comments from
 the Secretary of the Interior; Under Secretary of Defense for Acquisition, Technology,
 and Logistics; Under Secretary of Defense (Comptroller)/Chief Financial Officer; and the
 Assistant Secretary of the Army (Financial Management and Comptroller) when
 preparing the final report.

 DoD Directive 7650.3 and the DOI Departmental Manual 360 DM 1 require that all
 recommendations be resolved promptly. The comments from the Secretary of the
 Interior, Under Secretary of Defense (Comptroller)/Chief Financial Officer, and the
 Assistant Secretary of the Army (Financial Management and Comptroller) were
 responsive. However, the comments from the Under Secretary of Defense for
 Acquisition, Technology, and Logistics were only partially responsive. Therefore, we
 request comments on Recommendation A.2 by May 14, 2012.

 If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
 containing your comments to audacm@dodig.mil. Portable document format (.pdf)
 copies of your comments must have the actual signature of the authorizing official for
 your organization. We are unable to accept the /Signed/ symbol in place of the actual
 signature. If you arrange to send classified comments electronically, you must send them
 over the SECRET Internet Protocol Router Network (SIPRNET).




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
                                                                                                2

       We appreciate the courtesies extended to the staff. Please direct questions to us at
       (703) 604-890 I and (202) 208-5745, respectively.




  O~aniel R.        I r
                                                           ~~~
                                                         Kimberly Elm e
  l'    Deputy Inspector General                         Assistant inspector General for
        Department of Defense                            Audits, Inspections, and Evaluations
        Office ofinspector General                       U.S. Department of the Interior
                                                         Office of Inspector General




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
Report No. DODIG-2012-072 (Project No. D2011-D000CF-0034.000)        April 13, 2012
DOI Report No. ER-IN-NBC-0001-2011 (Project No. ER-IN-NBC-0001-2011)


               Results in Brief: DoD’s FY 2010 Purchases
               Made Through the Department of the Interior

                                                            •   DoD requesting activity officials
What We Did                                                     performed inadequate reviews of
The National Defense Authorization Act for                      contractor cost proposals for 31 contract
FY 2008 requires the DoD Inspector General and                  actions, valued at $77.1 million.
the Department of the Interior (DOI) Inspector
General to review DoD procedures for                        •   DoD requesting activity officials
interagency purchases made through DOI. We                      prepared inadequate independent
reviewed 56 contract actions, valued at                         Government cost estimates for
$133.4 million, which officials from two DOI                    38 contract actions, valued at
contracting offices, the Acquisition Services                   $84.1 million.
Directorate (AQD)-Herndon and
AQD-Sierra Vista, awarded for DoD requesting                •   AQD-Herndon and AQD-Sierra Vista
activities, to determine whether the purchases                  used other Federal agencies’ and existing
were made in accordance with laws, policies, and                DoD contracts to make purchases for
procedures.                                                     DoD for 44 contract actions, valued at
                                                                $95.3 million.
What We Found
                                                         The price reasonableness problems occurred
Generally, DOI contracting and resource                  because AQD-Herndon and AQD-Sierra Vista
management officials complied with laws,                 contracting officials relied on incomplete DoD
policies, and procedures. Prior significant              requesting activities’ reviews of contractor cost
problems with DOI billing DoD in advance and             proposals and inadequate DoD requesting
DOI using DoD expired funds have been fixed.             activities independent Government cost estimates
Improvements can still be realized in other              as their primary basis for determining that the
contracting areas. Specifically:                         prices DoD paid were fair and reasonable. The
                                                         competition problems occurred because AQD-
   •    AQD-Herndon and AQD-Sierra Vista                 Herndon contracting officials did not attempt to
        contracting officials did not support that       obtain more offers after receiving only one offer.
        the prices DoD paid were fair and
        reasonable for 24 contract actions, valued       We also identified five potential bona fide needs
        at $72 million.                                  rule violations, valued at $6.9 million. The
                                                         problems occurred because the policy for
   •    AQD-Herndon contracting officials did            Economy Act orders and non-Economy Act
        not adequately compete two contract              orders is not consistent. In addition, the
        actions, valued at $1.3 million, and did         “reasonable time” standard for Economy Act
        not support the use of sole-source               orders is unclear. As a result, AQD-Sierra Vista
        contracts for three contract actions,            accepted DoD purchases right up to the end of
        valued at $1.3 million.




                                                     i
       All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
the fiscal year, sometimes on September 30,          purchased and a period of performance, when
2010. This made it difficult, if not impossible,     they prepare MIPRs.
for contract performance to begin during the
funds’ period of availability, as required by        The Assistant Secretary of the Army (Financial
the DoD Regulation 7000.14-R, “DoD Financial         Management and Comptroller) should instruct
Management Regulation” (DoD FMR). We also            activities having potential bona fide needs rule
determined that 38 of 81 DoD military                violations to initiate action and oversee the
interdepartmental purchase requests (MIPRs),         process to adjudicate the potential violations.
related to 27 of the 56 contract actions, were not
specific. The MIPRs were not specific because        Management Comments and
DoD requesting activities did not follow existing
guidance related to the need to be specific when
                                                     Our Response
defining requirements.                               The Secretary of the Interior agreed with the
                                                     recommendations, and the comments were
What We Recommend                                    responsive. The Secretary of the Interior agreed
                                                     to strengthen the Interior’s process of informing
The Secretary of the Interior should direct the      DoD requesting activities of the intent to use
DOI National Business Center to instruct AQD-        contracts from other Federal agencies. The USD
Herndon and AQD-Sierra Vista to inform DoD           AT&L agreed with the recommendations;
requesting agencies of their intent to use DoD       however, his comments were not fully
contracts and contracts from other Federal           responsive. The USD AT&L stated that DoD
agencies for DoD purchases and to better support     had generated multiple Defense Federal
price reasonableness determinations for DoD          Acquisition Regulation Supplement cases
purchases. Likewise, the Under Secretary of          including Case 2011-D013. The USD AT&L did
Defense for Acquisition, Technology, and             not address the action his office is going to take
Logistics (USD AT&L) should instruct DoD             to instruct DoD requesting activities to obtain
requesting activities to obtain prior approval       prior approval from their respective heads of
from their respective heads of contracting when      contracting when DOI prepares to use other
DOI prepares to use other Federal agencies’          Federal agencies’ contracts for DoD purchases.
contracts for DoD purchases.                         Therefore, we request that the USD AT&L
                                                     provide additional comments in response to the
The Under Secretary should also initiate a           final report. The Under Secretary of Defense
change to the Defense Federal Acquisition            (Comptroller)/Chief Financial Officer, and the
Regulation Supplement to include information         Assistant Secretary of the Army (Financial
contained in the USD AT&L November 24,               Management and Comptroller) agreed with the
2010, and April 27, 2011, memoranda.                 recommendations, and the comments were
                                                     responsive. The Under Secretary of Defense
The Under Secretary of Defense                       (Comptroller)/Chief Financial Officer agreed to
(Comptroller)/Chief Financial Officer should         update the DoD FMR and to issue a policy
change the DoD FMR so that policy for                memorandum to remind Components to adhere
Economy Act orders matches that for non-             to existing guidance in the DoD FMR. The
Economy Act orders, requiring severable              Assistant Secretary of the Army (Financial
services to begin during the funds’ period of        Management and Comptroller) agreed to review
availability. The Comptroller should also            the five contracts and issue guidance directing
instruct DoD Components to comply with               the appropriate commands to provide additional
existing guidance on the need to be specific in      information and report violations to his office.
defining requirements, including a clear             Please see the recommendations table on the next
description of the services or goods being           page.

     All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
Recommendations Table

         Management                   Recommendations     No Additional Comments
                                     Requiring Comment          Required
Secretary of the Interior                                A.1

Under Secretary of Defense for    A.2.a                  A.2.b
Acquisition, Technology, and
Logistics
Under Secretary of Defense                               B.1
(Comptroller)/Chief Financial
Officer
Assistant Secretary of the Army                          B.2
(Financial Management and
Comptroller)

Please provide comments by date May 14, 2012.




 All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Table of Contents
 Introduction                                                              1

        Objective                                                          1
        Legislation and Congressional Report Requirement                   1
        Background                                                         2
        Review of Internal Controls                                        4

 Finding A. DOI Complied With Laws, Policies, and Procedures,
 but Improvement Is Needed                                                 5

        DOI Complied With Section 801 Requirements                         6
        Prior Significant Problems Have Been Fixed                         6
        Price Reasonableness Problems Occurred                             6
        Competition and Sole-Source Problems Occurred                      7
        DoD Reviews of Contractor Cost Proposals Were Inadequate           9
        Information in IGCEs Was Not Supported                            11
        DoD Paid Unnecessary Fees When DOI Used Other Federal Agencies’
           Contracts to Make Purchases for DoD                            11
        Conclusion                                                        14
        Recommendations, Management Comments, and Our Response            15

 Finding B. Potential Bona Fide Needs Rule Violations                     17

        Applicable Criteria                                               17
        Five Potential Bona Fide Needs Rule Violations                    18
        Contributing Factors                                              22
        DoD MIPRs Were Not Specific                                       23
        Conclusion                                                        23
        Recommendations, Management Comments, and Our Response            24

 Appendices

        A. Scope and Methodology                                          26
           Universe Information                                           26
           Sample Information                                             26
           Use of Computer-Processed Data                                 27
        B. Prior Coverage                                                 28
        C. DoD Purchases Reviewed                                         30
        D. AQD-Herndon Contracting Problems                               36
        E. AQD-Sierra Vista Contracting Problems                          38
        F. MIPRs That Were Not Specific                                   40




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Table of Contents (cont’d)
 Management Comments

        Department of the Interior                                              42
        Under Secretary of Defense for Acquisition, Technology, and Logistics
          Comments                                                              45
        Under Secretary of Defense (Comptroller)/Chief Financial Officer        46
        Department of the Army                                                  48




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Introduction
 Objective
 Our overall objective was to determine whether contract actions for purchases that two
 Department of the Interior (DOI) contracting offices, Acquisition Services Directorate
 (AQD)-Herndon and AQD-Sierra Vista, made for DoD requesting activities were in
 compliance with laws, policies, and procedures. Specifically, we examined whether:

    •   DOI complied with defense procurement requirements,
    •   adequate competition occurred,
    •   goods and services purchased were obtained at fair and reasonable prices, and
    •   DoD funds were used appropriately.

 See Appendix A for a discussion of the scope and methodology and Appendix B for prior
 coverage related to the objectives.

 Legislation and Congressional Report Requirement
 We performed this audit pursuant to Public Law 110-181, “The National Defense
 Authorization Act for Fiscal Year 2008,” section 801, “Internal controls for procurements
 on behalf of the Department of Defense by certain non-Defense agencies,”
 January 28, 2008. Section 801 requires the following Inspector General reviews:

 “(a) INSPECTORS GENERAL REVIEWS AND DETERMINATIONS.—
     (1) IN GENERAL.—For each covered non-defense agency, the Inspector General of the
 Department of Defense and the Inspector General of such covered non-defense agency
 shall, not later than the date specified in paragraph (2), jointly—
         (A) review—
              (i) the procurement policies, procedures, and internal controls of such covered
         non-defense agency that are applicable to the procurement of property and
         services on behalf of the Department by such covered non-defense agency; and
              (ii) the administration of such policies, procedures, and internal controls; and
         (B) determine in writing whether such covered non-defense agency is or is not
     compliant with defense procurement requirements.
     (2) DEADLINE FOR REVIEWS AND DETERMINATIONS.—The reviews and determinations
 required by paragraph (1) shall take place as follows:
         (A) In the case of the General Services Administration, by not later than March
     15, 2010.
         (B) In the case of each of the Department of the Treasury, the Department of the
     Interior, and the National Aeronautics and Space Administration, by not later than
     March 15, 2011.
         (C) In the case of each of the Department of Veterans Affairs and the National
     Institutes of Health, by not later than March 15, 2012.”




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 On March 14, 2011, we provided letters and debrief charts to the U.S. House Committee
 on Armed Services and the U.S. Senate Armed Services Committee, which included the
 results of our audit.

 Background
 Interagency acquisition is the procedure by which an agency needing supplies or services
 obtains them by means of another agency’s contract, the acquisition assistance of another
 agency, or both. Interagency acquisitions typically involve two Government agencies:
 the requesting agency, which has the requirement, and the servicing agency, which
 provides the acquisition support, administers the contract, or both. There are two types of
 interagency acquisitions: direct acquisition and assisted acquisition. In direct
 acquisition, the requesting agency places an order against the servicing agency’s
 indefinite-delivery vehicle. The servicing agency manages the indefinite-delivery vehicle
 but does not participate in the placement of an order. In assisted acquisition, the
 servicing agency and requesting agency enter into an interagency agreement, where the
 servicing agency performs acquisition activities on the requesting agency’s behalf. The
 servicing agency is responsible for awarding a contract, task order, or delivery order and
 for appointing a contracting officer’s representative. The 56 contract actions reviewed
 during this audit were assisted acquisitions, which two DOI National Business Center
 contracting activities executed for purchases on behalf of DoD requesting activities
 during FY 2010. Appendix C provides details on each of the 56 contract actions.

 The National Business Center
 The National Business Center, created within DOI on April 1, 1999, includes seven
 directorates:

    •   Acquisition Services,
    •   Aviation Services,
    •   Consulting and Performance Management Services,
    •   Financial and Business Management Services,
    •   Human Resource Services,
    •   Information Technology Services, and
    •   Other DOI Support Services.

 The 56 contract actions reviewed in this report were related to the Acquisition Services
 Directorate. There are five contracting offices within AQD, in Boise, Idaho; Denver,
 Colorado; Herndon, Virginia; Sierra Vista, Arizona; and Washington, D.C. AQD-
 Herndon and AQD-Sierra Vista awarded the 56 contract actions we reviewed. We
 selected these contracting offices because they obligated more funds for DoD purchases
 than the other contracting offices.

 DoD Business With DOI in FY 2010 Was Significant
 As Figure 1 shows, a large portion of AQD-Herndon and AQD-Sierra Vista contract
 actions were for DoD. During FY 2010, AQD-Herndon executed 1,001 contract actions,
 which obligated $1.1 billion of funds. Of these, 347 contract actions, which obligated



All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 funds of $521.1 million, were for assisted acquisitions that AQD-Herndon made on
 behalf of DoD customers. Accordingly, 48 percent of AQD-Herndon’s FY 2010
 obligations were for DoD purchases. During the same time period, AQD-Sierra Vista
 executed 640 contract actions, which obligated $498.7 million of funds. Of these,
 464 contract actions, with obligated funds of $434.3 million, were for assisted acquisition
 purchases that AQD-Sierra Vista made on behalf of DoD customers. Accordingly,
 87 percent of AQD-Sierra Vista’s FY 2010 obligations were for DoD purchases.

       Figure 1. Proportion of Contract Actions Performed for DoD Purchases
                 at AQD-Herndon and AQD-Sierra Vista in FY 2010




 Figure 2 identifies the various DoD activities that used AQD-Herndon and AQD-
 Sierra Vista for assisted acquisitions during FY 2010. The Defense Advanced Research
 Projects Agency (DARPA) is separated from other DoD agencies to better show its
 significant use of AQD-Sierra Vista.

      Figure 2. DoD Activities That Used AQD-Herndon and AQD-Sierra Vista
                                     in FY 2010




 Contract Actions We Reviewed
 We nonstatistically selected 56 FY 2010 AQD-Herndon and AQD-Sierra Vista contract
 actions, valued at $133.4 million, for review. AQD-Herndon awarded 28 of the 56 contract
 actions, valued at $63.5 million, for 16 DoD requesting activities. AQD-Sierra Vista also
 awarded 28 contract actions, valued at $69.9 million, for 12 DoD requesting activities.

                                              3

All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Fifty of the 56 contract actions were for services, and 6 were for products. We used the
 Federal Procurement Data System-Next Generation database to determine the contract
 actions we reviewed.

 We reviewed the contract actions for the following issues:

    •   compliance with defense procurement requirements,
    •   advance billing,
    •   use of expired funds,
    •   furniture purchases,
    •   competition,
    •   price reasonableness determinations, and
    •   use of funds.

 Various Contracting Methods DOI Used for DoD Purchases
 AQD-Herndon and AQD-Sierra Vista contracting officials used a variety of contracting
 methods for the 56 contract actions (see Table 1). These included other Federal agencies’
 contracts, such as the General Services Administration (GSA) Federal supply schedules;
 existing DoD contacts; an existing National Aeronautics and Space Administration
 (NASA) contract; and new and existing DOI contracts.

                   Table 1. Contracting Methods Used for DoD Purchases
        DOI            GSA Federal     Existing    Existing     Existing     New        Total
     Contracting         Supply         DoD         NASA         DOI         DOI
       Office           Schedules      Contract    Contract     Contract    Contract
   AQD-Herndon             13            10           1            2           2         28
   AQD-Sierra Vista         20                                     6            2        28
    Total                   33            10           1           8            4        56


 Review of Internal Controls
 DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
 July 29, 2010, and the DOI Departmental Manual 360 DM 1, requires DoD and DOI
 organizations to implement a comprehensive system of internal controls that provides
 reasonable assurance that programs are operating as intended and to evaluate the
 effectiveness of the controls. We identified internal control weaknesses when, AQD-
 Herndon and AQD-Sierra Vista contracting officials relied on incomplete DoD reviews
 of contractor cost proposals and independent Government cost estimates (IGCEs) as their
 primary basis for determining that the prices paid were fair and reasonable. Accordingly,
 DoD did not have adequate assurance that the prices it paid were fair and reasonable or
 that it obtained best value. In addition, DoD and AQD-Sierra Vista did not always follow
 the bona fide needs rule, and DoD funding documents were not specific. We will provide
 a copy of the report to the senior official responsible for internal controls in the offices of
 the Under Secretary of Defense for Acquisition, Technology and Logistics; the Under
 Secretary of Defense (Comptroller)/Chief Financial Officer; and the DOI National
 Business Center.



All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Finding A. DOI Complied With Laws, Policies,
 and Procedures, but Improvement Is Needed
 Generally, DOI contracting offices AQD-Herndon and AQD-Sierra Vista contracting and
 resource management officials complied with laws, policies, and procedures. Prior
 significant problems with purchases made by DOI—billing DoD in advance and using
 DoD expired funds—have been fixed. DOI can still improve support for price
 reasonableness determinations, and DoD requesting activities can improve on proposal
 reviews and IGCEs. Specifically: *

     •    Of 48 contract actions, valued at $102.6 million, AQD-Herndon and AQD-Sierra
          Vista contracting officials did not support that the prices DoD paid were fair and
          reasonable for 24 contract actions, valued at $72 million.

     •    Of 45 contract actions, valued at $101.8 million, AQD-Herndon contracting
          officials did not adequately compete 2 contract actions, valued at $1.3 million,
          and did not support the use of sole-source contracts for 3 contract actions, valued
          at $1.3 million.

     •    Of 42 contract actions, valued at $91.4 million, DoD requesting activity officials
          performed inadequate reviews of contractor cost proposals for 31 contract actions,
          valued at $77.1 million.

     •    Of 40 contract actions, valued at $89.6 million, DoD requesting activity officials
          prepared inadequate IGCEs for 38 contract actions, valued at $84.1 million.

     •    Of 56 contract actions, valued at $133.4 million, AQD-Herndon and AQD-Sierra
          Vista used other Federal agencies’ contracts and existing DoD contracts to make
          purchases for DoD for 44 contract actions, valued at $95.3 million.

 The price reasonableness problems occurred because AQD-Herndon and AQD-
 Sierra Vista contracting officials relied on incomplete DoD reviews of contractor cost
 proposals and IGCEs as their primary basis for determining that the prices paid were fair
 and reasonable. The competition problems occurred because AQD-Herndon and AQD-
 Sierra Vista contracting officials did not attempt to obtain more offers after receiving
 only one offer and also because they advertised requirements for short periods of time.
 The sole-source problems occurred due to poor acquisition planning. Until DoD and DOI
 resolve these contracting issues, DoD will not be assured that it is receiving best value
 when using DOI for making interagency acquisitions.




 *
  Overall, we reviewed 56 contract actions. Eight of the contract actions were modifications to contracts or
 orders issued under existing contracts; therefore, we did not review these for competition or pricing issues.
 That is why the denominators in the bulleted information are different.




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 DOI Complied With Section 801 Requirements
 Congress enacted section 801 of the FY 2008 National Defense Authorization Act
 because of abuses related to DoD purchases made through other agencies. Section 801
 requires the following for Inspector General reviews:

                    (b) LIMITATION ON   PROCUREMENTS ON BEHALF OF DEPARTMENT
                OF DEFENSE.—
                         (1) Except as provided in paragraph (2), an acquisition official
                    of the Department of Defense may place an order, make a
                    purchase, or otherwise procure property or services for the
                    Department of Defense in excess of the simplified acquisition
                    threshold through a non-defense agency only if—
                              (A) in the case of a procurement by any non-defense
                         agency in any fiscal year, the head of the non-defense agency
                         has certified that the non-defense agency will comply with
                         defense procurement requirements for the fiscal year.

 Generally, DOI contracting and resource management officials complied with
 section 801 of the National Defense Authorization Act for Fiscal Year 2008.

 Prior Significant Problems Have Been Fixed
 Problems that had been identified in past DOI audits, specifically advance billing and the
 use of expired DoD funds, did not reoccur. DOI did not bill in advance or use expired
 DoD funds. However, we determined that none of the 56 contract actions we reviewed
 were for furniture purchases. As a result of the furniture problems identified in DoD
 Inspector General Report No. D-2008-122, “Follow-up on DoD Purchases Made Through
 the Department of the Interior,” August 18, 2008, the Director, Defense Procurement and
 Acquisition Policy, issued a memorandum on March 27, 2008, that imposed restrictions
 on furniture purchases. The memorandum stated:

                Interagency agreements with the Department of the Interior’s Herndon
                and AQD-Sierra Vista locations for requirements for furniture may
                only be accepted and executed by the Associate Director, Acquisition
                Services, or his designee(s). In no event may DoD Components send
                an interagency agreement for any furniture requirement after July 1, or
                any fiscal year, regardless of the expected delivery date of the
                requirement.

 In response to the Director’s restrictions, the Associate Director of the DOI National
 Business Center, Acquisition Services Directorate, delegated his authority to accept DoD
 requirements for furniture to an Acquisition Services Directorate Division Chief. We did
 not identify any instances where AQD-Herndon or AQD-Sierra Vista purchased furniture
 on behalf of DoD during FY 2010.

 Price Reasonableness Problems Occurred
 Of 48 contract actions, valued at $102.6 million, AQD-Herndon and AQD-Sierra Vista
 contracting officials did not support that the prices DoD paid were fair and reasonable for
 24 contract actions, valued at $72 million. The price reasonableness problems were



All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 related to contract actions for services that involved only one offer. The price
 reasonableness problems occurred because AQD-Herndon and AQD-Sierra Vista
                                                     contracting officials relied primarily on
        The price reasonableness problems            inadequate DoD reviews of contractor
       occurred because AQD-Herndon and              cost proposals and inadequate DoD
      AQD-Sierra Vista contracting officials         IGCEs to support that the prices DoD
        relied primarily on inadequate DoD           paid were fair and reasonable. For 10
     reviews of contractor cost proposals and        contract actions, AQD-Sierra Vista
    inadequate DoD IGCEs to support that the         contracting officials did not even state
    prices DoD paid were fair and reasonable.        whether the overall prices were fair and
                                                     reasonable. Appendices D and E
 identify the individual AQD-Herndon and AQD-Sierra Vista contract actions that had
 price reasonableness problems. DOI also had price reasonableness problems involving
 contract actions for the purchases of services involving only one offer during three prior
 DOI audits, (see Table 2).

     Table 2. Price Reasonableness Problems Identified During Prior DOI Audits
         DoD IG Report Title         Report         Report Date         No. of Contract
                                     Number                           Actions With Price
                                                                        Reasonableness
                                                                      Problems (Services)
     FY 2005 DoD Purchases
     Made Through the               D-2007-044        01/16/07             20 of 24
     Department of the Interior
     FY 2006 and FY 2007 DoD
     Purchases Made Through the     D-2008-066        03/19/08              4 of 24
     Department of the Interior
     Follow-up on DoD Purchases
     Made Through the               D-2008-122        08/18/08              6 of 22
     Department of the Interior


 Competition and Sole-Source Problems Occurred
 Of 45 contract actions, valued at $101.8 million, AQD-Herndon contracting officials did
 not adequately compete 2 contract actions, valued at $1.3 million, and did not support the
 use of sole-source contracts for 3 contract actions, also valued at $1.3 million. For two
 contract actions, AQD-Herndon did not attempt to obtain more than one quote. For three
 contract actions, AQD-Herndon’s use of sole-source justifications resulted from poor
 acquisition planning rather than a legitimate need (see Table 3).




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
                    Table 3. Inadequate Use of Sole-Source Contracts
       AQD-Herndon                   Information Contained in Contract Award Summaries
       Contract Action
     INN10PD18216             It would be impractical to conduct a meaningful competition by the
                              time the current task order expires February 28, 2010, without a break
                              in service.
     INN10PD18224             It would be impractical to conduct a meaningful competition by the
                              time the current task order expires on February 28, 2010, without a
                              break in service.
     INN10PD18229             The current task order expires March 4, 2010, and cannot be extended.*
    *The Justification and Approval was not signed until March 3, 2010.

 AQD-Sierra Vista did not have any competition problems. Appendix D identifies the
 AQD-Herndon contract actions that had competition and sole-source problems.

 DOI Advertised DoD Purchases for Short Periods of Time
 Of the 45 contract actions, valued at $101.8 million, 9 contract actions, valued at
 $30.5 million, were advertised for short periods of time. The nine requests for quote
 were advertised for 22 days or less, and eight of the nine were advertised for 16 days or
 less (see Table 4).

            Table 4. Contract Actions Advertised for Short Periods of Time
           Contract            Contract Action            Number of                Days RFQ*
            Action                Amount                Offers Received            Advertised
        INN10PD18350                   $216,688                1                    15 days
        INN10PD18352                    216,688                1                    11 days
        INN10PD18140                  1,086,126                1                    14 days
        INN10PD18425                    213,469                1                    11 days
        INN10PD20046                 11,714,234                1                    22 days
        INN10PD20038                 11,028,479                1                    15 days
        IND10PD20053                    526,358                1                     5 days
        IND10PD20062                  2,287,040                1                     4 days
        IND10PD20029                  3,207,434                1                    16 days
          Total                     $30,496,516
        *Request for quote.
        Note: Amounts are rounded.

 The Director, Defense Procurement and Acquisition Policy, issued two memoranda to
 DoD Components, providing guidance on solicitations that are open for fewer than
 30 days and receive only one offer. On November 24, 2010, the Director issued
 “Improving Competition in Defense Procurements.” The memorandum stated:

                 If a solicitation was open for less than 30 days and only one offer was
                 received, the contracting officer shall re-advertise the solicitation for a




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
                minimum of an additional 30 days unless a waiver is obtained from the
                head of the contracting activity. Further, if the solicitation was open
                for at least 30 days, or has been re-advertised and still only one offer is
                received, the contracting officer shall conduct negotiations with the
                offeror, unless this requirement is specifically waived by the head of
                the contracting activity. The basis for these negotiations shall be either
                certified cost or pricing data or other than certified cost or pricing data,
                as appropriate. In no event, should the negotiated price exceed the
                price originally offered.

 On April 27, 2011, the Director issued another memorandum, “Improving Competition in
 Defense Procurements – Amplifying Guidance,” in response to questions raised about the
 earlier memorandum. The April 27, 2011, memorandum stated:

                The policy guidance set out in the November 24, 2010, memorandum is
                applicable to all competitive procurements of supplies and services
                above the Simplified Acquisition Threshold (SAT), including
                commercial items and construction. Further, it covers procurements
                accomplished under the procedures in Federal Acquisition Regulation
                (FAR) and Defense Federal Acquisition Regulation Supplement
                (DFARS) parts/subparts 8.4, 12, 13, 14, 15, and 16.5. Exceptions to
                this policy are procurements in support of emergency acquisitions for
                contingency operations, humanitarian assistance, disaster relief,
                peacekeeping operations, or recovery from nuclear, biological,
                chemical, or radiological attacks against the United States.

 The Director issued the memoranda after DOI awarded the 56 contract actions.
 Nevertheless, the memoranda should also apply to other Federal agencies that perform
 assisted interagency acquisitions for DoD. Accordingly, the Under Secretary of Defense
 for Acquisition, Technology and Logistics should initiate a change to the Defense Federal
 Acquisition Regulation Supplement to include information contained in both policy
 memoranda.

 DoD Reviews of Contractor Cost Proposals Were
 Inadequate
 Of 42 contract actions, valued at $91.4 million, DoD requesting activity officials
 performed inadequate reviews of contractor cost proposals for 31 contract actions, valued
                                              at $77.1 million. DoD reviews consisted of
    DoD reviews consisted of cursory
                                              cursory statements instead of a specific
      statements instead of a specific
                                              analysis that explained the appropriateness of
        analysis that explained the
                                              the various cost elements in the contractors’
   appropriateness of the various cost
                                              cost proposals. The inadequate reviews caused
     elements in the contractors’ cost
                                              more problems. Specifically, AQD-Herndon
                proposals.
                                              and AQD-Sierra Vista contracting officials
 used the inadequate reviews to support that the prices DoD paid were fair and reasonable.
 The reviews were especially important for contract actions involving only one offer. In
 the following review for contract action N10PD18229, valued at $956,277, DoD
 requesting activity officials did not state whether DoD officials determined that the




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 contractor-proposed labor hours were adequate, or even whether DoD officials reviewed
 labor hours.
                4 March 2010

                Army National Guard has reviewed the NOBLIS’ response to
                RFQ#N10PS18229 and find it technically responsive and acceptable.

                The labor categories and skill levels appear reasonable to accomplish
                the ongoing tasks except for the addition of a new labor category of
                “Senior Principal.” Since it is not clear what the function of the Senior
                Principal will be, we are recommending removing the labor category.

 In the review for contract action N10PD20038, valued at $11 million, instead of a
 detailed analysis, the review of the contractor’s cost proposal consisted of a checklist
 with no explanation of how the reviewer determined that the various cost elements were
 appropriate.
        FROM: U.S. Army National Guard, Training Division, 111 S. George Mason
        Drive, Arlington, VA 22204

        SUBJECT: Technical Evaluation of Proposal Entitled “EXPORTABLE COMBAT TRAINING
        CAPABILITY PREPARATION, EXECUTION, AND POST EXERCISE ACTIVITIES for the
        2010 Exportable Combat Training Capability Bridge,” dated 21 May 2010, SRI Proposal EXU 10-
        144R1

              1) My review of labor categories and mix proposed finds the proposal appropriate.
                 Yes No N/A Yes with comments________ No with comments_______

              2) Proposed ODCs were detailed and are appropriate for the task.
                Yes    No N/A Yes with comments________ No with comments_______

              3) Personal proposed are qualified to perform work (education, experience, certifications)
                Yes    No N/A Yes with comments________ No with comments_______

              4) The quantity of labor hours is appropriate to do the task.
                Yes    No N/A Yes with comments________ No with comments_______

              5) I have read and fully comprehend the proposal.
                Yes      No N/A Yes with comments________ No with comments_______

              6) Travel estimates + costs are appropriate for the task.
                Yes     No N/A Yes with comments________ No with comments_______

              7) To the best of my knowledge, this proposal satisfies all aspects of the requirements
                Yes     No N/A Yes with comments________ No with comments_______

 Appendices D and E identify the respective AQD-Herndon and AQD-Sierra Vista
 contract actions in which DoD requesting activities performed inadequate reviews of
 contractor cost proposals. During three prior DOI audits, we also identified problems
 related to inadequate reviews of contractor cost proposals (see Table 5).




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
  Table 5. Inadequate Reviews of Contractor Cost Proposals Identified During Three
                                 Prior DOI Audits
            DoD-IG Report Title              Report No.     Report        No. of Contract
                                                             Date          Actions With
                                                                         Inadequate DoD
                                                                       Reviews of Contractor
                                                                          Cost Proposals
                                                                            (Services)
  FY 2005 DoD Purchases Made Through the
                                            D-2007-044     01/16/07           19 of 24
  Department of the Interior
  FY 2006 and FY 2007 DoD Purchases Made
                                            D-2008-066     03/19/08            3 of 24
  Through the Department of the Interior
  Follow-up on DoD Purchases Made Through
                                            D-2008-122     08/18/08            6 of 22
  the Department of the Interior


 Information in IGCEs Was Not Supported
 Of 40 contract actions for services, valued at $89.6 million, DoD requesting activity
 officials prepared inadequate IGCEs for 38 contract actions, valued at $84.1 million.
 Specifically, the DoD requesting activity provided IGCEs that did not identify the
 preparer, when they were prepared, how the preparer developed the estimated costs, and
 what reference materials the preparer used. The IGCEs were important because AQD-
 Herndon and AQD-Sierra Vista contracting officials used them to evaluate the prices
 proposed by contractors. Appendices D and E identify the respective AQD-Herndon and
 AQD-Sierra Vista contract actions in which DoD requesting activities prepared
 inadequate IGCEs. Two prior DOI audits also identified problems related to inadequate
 IGCEs for service contracts (see Table 6).

              Table 6. Prior DOI Audits That Identified IGCE Problems
           DoD-IG Report Title              Report No.    Report      No. of Contract Actions
                                                           Date        With IGCE Problems
                                                                             (Services)
 FY 2005 DoD Purchases Made Through the
                                            D-2007-044    01/16/07           22 of 24
 Department of the Interior
 FY 2006 and FY 2007 DoD Purchases Made
                                            D-2008-066    03/19/08           11 of 11
 Through the Department of the Interior


 DoD Paid Unnecessary Fees When DOI Used Other
 Federal Agencies’ Contracts to Make Purchases for DoD
 DoD paid AQD-Herndon and AQD-Sierra Vista $2.9 million in unnecessary fees for its
 contracting support for 44 contract actions, valued at $95.3 million, of 56 contract
 actions, valued at $133.4 million. Specifically, AQD-Herndon and AQD-Sierra Vista




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 used other Federal agencies’ contracts and existing DoD contracts to make the purchases
 for DoD. Of the 44 contract actions:

    •     33 contract actions, valued at $68.9 million, were GSA Federal supply schedule
          orders,
    •     10 contract actions, valued at $24.4 million, were orders issued under existing
          DoD contracts, and
    •     1 contract action, valued at $2 million, was an order issued from a NASA
          Solutions for Enterprise-Wide Procurement contract.

 While AQD-Herndon and AQD-Sierra Vista contracting officials were permitted to use
 other Federal agencies’ contracts for DoD purchases, DoD requesting activities should be
 required to obtain approval from their head of contracting for these types of purchases.
 In addition, DoD contracting offices should have had the expertise to make purchases
 such as help desk services and life preservers, which AQD-Herndon purchased for the
 Army and Navy from two of the contracts we reviewed. Appendix C identifies the
 contract vehicle used for the 56 contract actions reviewed in this report.

 DoD Paid Unnecessary Fees When DOI Used GSA Federal
 Supply Schedule
 DoD paid AQD-Herndon and AQD-Sierra Vista unnecessary estimated service fees of
 $2.1 million for GSA Federal supply schedule orders for 33 contract actions, valued at
 $68.9 million. The fees ranged from 1.5 to 5 percent, for an average of approximately
 2.99 percent of the total amount obligated. Overall, during FY 2010, AQD-Herndon and
 AQD-Sierra Vista contracting officials used GSA Federal supply schedules for
 203 contract actions, valued at $181.1 million, for purchases made on behalf of DoD.
 DoD would have paid AQD-Herndon and AQD-Sierra Vista service fees for these
 purchases. During two previous DOI interagency audits, AQD-Herndon and AQD-
 Sierra Vista contracting officials used GSA Federal supply schedules to make purchases
 for DoD for 46 of 92 contract actions (see Table 7).

        Table 7. Prior Audits Showing DOI Use of GSA Federal Supply Schedules
                                  for DoD Purchases
            DoD IG Report Title            Report No.     Report Date       No. of Contract
                                                                            Actions Made
                                                                          Using GSA Federal
                                                                           Supply Schedules
 FY 2005 DoD Purchases Made Through the    D-2007-044       01/16/07           19 of 49
 Department of the Interior
 FY 2006 and FY 2007 DoD Purchases Made    D-2008-066       03/19/08           27 of 43
 Through the Department of the Interior
  Total                                                                        46 of 92




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 DoD Paid Unnecessary Fees When DOI Used Existing DoD
 Contracts
 DoD paid AQD-Herndon unnecessary fees of $650,460 for contracting support for
 10 contract actions, valued at $24.4 million. AQD-Herndon contracting officials used
 existing DoD contracts to make those purchases for DoD (see Table 8).

    Table 8. Existing DoD Contracts That AQD-Herndon Used for DoD Purchases
      DoD Contract         AQD-Herndon Order           Award              Fees Paid
                                                       Amount
    W91QUZ09D0043         INN10PD18265                  $3,782,801            $113,484
    W91QUZ06D0016         INN10PD18153                   1,500,000              48,788
                          INN10PD18153/01                  522,920              20,917
                          INN10PD18153/03                   50,000               2,000
    W91QUZ07D0006         INN10PD18428                      18,755                 750
    W91QUZ07D0004         INN09PD10053/08               10,522,821             263,071
                          INN09PD10053/09                5,346,558             133,664
                          INN09PD10053/11                  300,128               7,503
                          INN09PD10053/14                2,274,824              56,871
    DABL0103A1006         IND10PD18613                      85,288               3,412
     Total                                             $24,404,095            $650,460
    Note: Amounts are rounded.

 The DoD contracting activity that awarded the contracts and the three DoD requesting
 activities that used AQD-Herndon are all located in the Washington metropolitan area
 (see Figure 3). According to the contract files, the DoD requesting activities instructed
 AQD-Herndon to use the DoD contracts for their purchases. This situation also occurred
 in two previous audits. DoD Inspector General Report No. D-2007-044, “FY 2005 DoD
 Purchases Made Through the Department of the Interior,” January 16, 2007, disclosed
 that AQD-Herndon contracting officials awarded 49 contract actions from existing DoD
 contracts in FY 2005 for DoD purchases. DoD Inspector General Report No. D-2008-
 007, “Task Orders on the Air Force Network-Centric Solutions Contract,” October 25,
 2007, disclosed that the GSA placed 91 orders for DoD customers on Air Force contracts.




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
  Figure 3. Process by Which Existing DoD Contracts Were Used for DoD Purchases




 DoD Paid Unnecessary Fees When DOI Used a NASA Contract
 DoD paid AQD-Herndon $101,626.37 in unnecessary fees for its contracting support for
 one contract action, valued at $2 million. AQD-Herndon contracting officials used an
 existing NASA contract for the DoD purchase.

 Conclusion
 The price reasonableness problems occurred because AQD-Herndon and AQD-
 Sierra Vista contracting officials relied on DoD requesting activities’ inadequate reviews
 of contractor cost proposals and IGCEs as their primary basis for determining that the
 prices paid were fair and reasonable. The competition problems occurred because AQD-
 Herndon and AQD-Sierra Vista contracting officials did not attempt to obtain more offers
 after receiving only one offer and they advertised requirements for short periods of time,




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 which may have been the reason only one offer was received. Until DoD and DOI
 resolve the issues in this finding, DoD will not be assured that it is receiving best value.

 Recommendations, Management Comments, and Our
 Response
 A.1 We recommend that the Secretary of the Interior direct the National Business
 Center to instruct Acquisition Services Directorate-Herndon and Acquisition
 Services Directorate-Sierra Vista to:

        a. Inform DoD requesting activities of their intent to use contracts from
 other Federal agencies for DoD purchases.

 Department of the Interior Comments
 The Secretary of the Interior agreed, stating that the Department of the Interior Office of
 the Secretary, National Business Center Acquisition Services Directorate, will deploy a
 management corrective action plan by June 30, 2012, to strengthen the Interior’s process
 of informing DoD requesting activities of the intent to use contracts from other Federal
 agencies for DoD purchases.

       b. Better support price reasonableness determinations for contract actions
 awarded using competitive procedures where only one offer is received.

 Department of the Interior Comments
 The Secretary of the Interior agreed, stating that the Department of the Interior Office of
 the Secretary, National Business Center Acquisition Services Directorate, will enhance
 price reasonableness determinations for contract actions awarded using competitive
 procedures when only one offer is received. He further stated that the Acquisitions
 Services Directorate will also implement policies and procedures to ensure that price
 reasonableness determinations are adequately supported and that competition is sought to
 the maximum extent practicable. He stated that implementation will be completed by
 June 30, 2012.

 Our Response
 The Secretary of the Interior’s comments were responsive, and no further comments are
 required.

 A.2. We recommend that the Under Secretary of Defense for Acquisition,
 Technology, and Logistics:

        a. Instruct DoD requesting activities to obtain approval from their Heads of
 Contracting at their respective contracting activities in situations when Acquisition
 Services Directorate-Herndon or Acquisition Services Directorate-Sierra Vista
 intend to use other Federal agencies’ contracts to make purchases for DoD.




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Under Secretary of Defense for Acquisition, Technology, and
 Logistics Comments
 The Under Secretary of Defense for Acquisition, Technology, and Logistics agreed,
 stating that his office shared the concern that DoD should be mindful of the fees paid to
 assisting agencies for services and the use of DoD contract vehicles to meet DoD
 requirements. He also stated that for both direct and assisted acquisitions, Defense
 Federal Acquisition Regulation Supplement 217.7802 requires DoD Components to
 establish and maintain procedures for reviewing and approving orders for supplies and
 services under non-DoD contracts and for assessing the cost-effectiveness of the
 approach.

 Our Response
 The Under Secretary of Defense for Acquisition, Technology, and Logistics comments
 were nonresponsive. Although the Under Secretary of Defense for Acquisition,
 Technology, and Logistics agreed, he did not address the action his office is going to take
 to address the recommendation. Therefore, we request that the Under Secretary of
 Defense for Acquisition, Technology, and Logistics provide additional comments in
 response to the final report. The comments should identify specific actions that will
 ensure that DoD requesting activities obtain approval from their heads of contracting at
 their respective contracting activities when AQD-Herndon or AQD-Sierra Vista intend to
 use other Federal agencies’ contracts to make purchases for DoD

        b. Initiate a change to the Defense Federal Acquisition Regulation
 Supplement to include information contained in the November 24, 2010, and
 April 27, 2011, Under Secretary of Defense for Acquisition, Technology, and
 Logistics memoranda related to improving competition in Defense procurements.

 Under Secretary of Defense for Acquisition, Technology, and
 Logistics Comments
 The Under Secretary of Defense for Acquisition, Technology, and Logistics agreed,
 stating that DoD has generated multiple Defense Federal Acquisition Regulation
 Supplement cases in support of the Better Buying Power initiative. He further stated that
 Case 2011-D013 is directly related to improving competition in DoD procurements by
 implementing a DoD Better Buying Power initiative to address using competitive
 procedures in procurements in which only one offer is received. He also stated that the
 Defense Acquisition Regulation Council is in the process of completing its review of
 public comments and preparing a final rule, which is planned for release sometime in
 April or May 2012.

 Our Response
 The Under Secretary of Defense for Acquisition, Technology, and Logistic comments
 were responsive, and no further comments are required. We reviewed Defense Federal
 Acquisition Regulation Supplement Case 2011-D013 and determined that its
 implementation will satisfy our recommendation.




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Finding B. Potential Bona Fide Needs Rule
 Violations
 Five potential bona fide needs rule violations, valued at $6.9 million, may have occurred
 for the following reasons.

    •   Policy in the DoD Financial Management Regulations for Economy Act orders
        and non-Economy Act orders was not consistent.

    •   The “reasonable time” standard for Economy Act orders was unclear.

    •   AQD-Sierra Vista accepted DoD purchases through September 30, 2010, the last
        day of the fiscal year. This made it difficult, if not impossible, for contract
        performance to begin during the funds’ period of availability, as required by the
        DoD Regulation 7000.14-R, “DoD Financial Management Regulation” (DoD
        FMR).

 Of 81 DoD military interdepartmental purchase requests (MIPRs), 38 MIPRs, related to
 27 of the 56 contract actions, were not specific. The MIPRs were not specific because
 DoD requesting activities did not follow existing guidance related to the need to be
 specific when defining requirements. As a result, DoD did not have adequate assurance
 that purchases DOI made on behalf of DoD were properly funded.

 Applicable Criteria
 Bona Fide Needs Rule
 Appropriations are generally available for set periods. An agency incurs a legal
 obligation to pay money within an appropriation’s period of availability. Funds are no
 longer available for use if an agency fails to obligate funds before they expire. Expired
 funds retain their “fiscal year identity” for 5 years after the end of the period of
 availability. During this time, the funds are available to adjust existing obligations or to
 liquidate prior valid obligations.

 According to section 1502(a), title 31, United States Code (31 U.S.C. § 1502[a])
 appropriations are available for the bona fide needs of an appropriation’s period of
 availability. The bona fide needs rule states:

                The balance of an appropriation or fund limited for obligation to a
                definite period is available only for payment of expenses properly
                incurred during the period of availability or to complete contracts
                properly made within that period of availability and obligated
                consistent with section 1501 of this title. However, the appropriation or
                fund is not available for expenditure for a period beyond the period
                otherwise authorized by law.




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Section 1501, Title 31, United States Code
 Section 1501, title 31, United States Code, “Documentary Evidence Requirement for
 Government Obligations” subparagraph (a) states that an amount shall be recorded as an
 obligation of the United States Government only when supported by documentary
 evidence of a binding agreement between an agency and another person (including an
 agency) that is in writing and for a purpose authorized by law.

 Antideficiency Act
 Congress passed the Antideficiency Act to curb the fiscal abuses that frequently created
 “coercive deficiencies” that required supplemental appropriations. The Antideficiency
 Act consists of several statutes, which include administrative and criminal sanctions for
 unlawful use of appropriated funds (31 U.S.C. §§ 1341, 1342, 1350, 1351, and 1511-
 1519). These statutory provisions enforce the constitutional budgetary powers entrusted
 to Congress with respect to the purpose, time, and amount of expenditures made by the
 Federal Government. Violations of other laws may trigger violations of Antideficiency
 Act provisions, such as the “bona fide needs rule” (31 U.S.C. § 1502[a]). Violations of
 the Antideficiency Act may result in administrative and/or criminal sanctions against
 those responsible.

 Economy Act
 Section 1535, title 31, United States Code, “Agency Agreements,” commonly referred to
 as the Economy Act, subparagraph (d), states that an order placed or agreement made
 under this section obligates an appropriation of the ordering agency or unit. The amount
 obligated is deobligated to the extent that the agency or unit filling the order has not
 incurred obligations, before the end of the period of availability of the appropriation, in
 (1) providing goods or services or (2) making an authorized contract with another person
 to provide the requested goods or services.

 DoD Financial Management Regulation
 Annual Appropriation Acts define the use of each appropriation and set specific timelines
 for use of the appropriations. The DoD FMR, volume 2A, chapter 1, provides guidelines
 on the most commonly used DoD appropriations for determining the correct
 appropriation to use when planning acquisitions. Chapters 3 and 18 provide guidelines
 for Economy Act and non-Economy Act orders, respectively.

 Section 2410a, Title 10, United States Code
 Section 2410a, title 10, United States Code, permits the performance of severable
 services to begin in one fiscal year and end in the next provided the period of
 performance does not exceed 12 months.

 Five Potential Bona Fide Needs Rule Violations
 Five potential bona fide needs rule violations may have occurred (see Table 9). The
 violations were related to contract actions that AQD-Sierra Vista contracting officials
 awarded and were subject to the Economy Act. Four of the five potential violations were
 for severable services, and all five were subject to annual funding fiscal limitations. The



All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Assistant Secretary of the Army (Financial Management and Comptroller) should instruct
 activities having potential bona fide needs rule violations to initiate action and oversee
 the process to adjudicate the potential violations. Each violation is discussed after
 Table 9.

    Table 9. Details Related to the Five Potential Bona Fide Needs Rule Violations
    Contract        Contract              DoD              DoD                      DoD
                   Award Date             MIPR.            MIPR               Requesting Activity
                                                          Amount
  IND10PD20076       09/30/10      MIPR0HDATIAZ02           $200,000     National Guard Bureau,
                                                                         Arlington, Virginia
  IND10PB20014       09/16/10      MIPR0LDOIRE207           1,274,831    U.S. Army Intelligence Center,
                                   and Amendment 1            530,000    Fort Huachuca, Arizona
  IND10PD20073       09/30/10      MIPR10D1JW0013           1,800,000    Office of the Assistant Secretary
                                                                         of the Army, Manpower and
                                                                         Reserve Affairs
  IND10PB20009       09/19/10      MIPR0LDO1RE206           1,658,061    U.S. Army Intelligence Center,
                                                                         Fort Huachuca, Arizona
  IND10PD20028       09/08/10      MIPR0LH8ARD041           1,920,000    U.S. Army Medical Command,
                                                                         Fort Sam Houston, Texas
   Total                                                  $6,852,892
   Note: Amounts are rounded.

 Contract Action IND10PD20076
 The contractor did not begin performance during the FY 2010 Operation and
 Maintenance (O&M) funds’ period of availability (see Table 10). Instead, performance
 began on October 1, 2010, which was the beginning of FY 2011. Accordingly, FY 2011
 O&M funds should have been used. On September 9, 2010, National Guard Bureau,
 Camp Dodge, Johnston, Iowa, officials issued MIPR0HDATIAZ02 to provide $200,000
 of funds to AQD-Sierra Vista. The funds used were FY 2010 Army National Guard
 O&M funds, which were available for use until September 30, 2010. The funds were to
 be used to obtain nonpersonal services, to comply with the DoD Information Assurance
 Certification and Accreditation Process, as required by the Federal Information Security
 Management Act of 2002 and DoD Information Assurance Certification and
 Accreditation Process. On September 30, 2010, AQD-Sierra Vista officials accepted the
 DoD funds and obligated the funds by awarding contract action IND10PD20076, valued
 at $189,066. According to documentation in the contract files, the services were
 severable.

  Table 10. Information From Invoice Records for Contract Action IND10PD20076
       MIPR and Amount          Invoice      Period Work Was Performed            Invoice Amount
     MIPR0HDATIAZ02             004027            10/01/10 to 10/31/10                        $28,750
     $200,000.00                004048            11/01/10 to 11/30/10                         48,477
                                004068            12/01/10 to 12/31/10                         15,704
      Total                                                                                   $92,931
      Note: Amounts are rounded.




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Contract Action IND10PB20014
 The contractor did not begin performance during the FY 2010 O&M funds’ period of
 availability (see Table 11). Instead, performance began on October 1, 2010, which was
 the beginning of FY 2011; therefore, FY 2011 O&M funds should have been used. On
 August 5, 2010, U.S. Army Intelligence Center, Fort Huachuca, Arizona, officials issued
 MIPR0LDOIRE207 to provide $1,274,831 of funds to AQD-Sierra Vista. On August 13,
 2010, U.S. Army Intelligence Center, Fort Huachuca, Arizona, officials issued
 MIPR0LDOIRE207, amendment 1, to provide an additional $530,000 of funds to AQD-
 Sierra Vista. The funds on these two MIPRs were FY 2010 Army O&M funds, which
 were available for use until September 30, 2010. The funds were to be used to obtain
 contractor expertise for follow-on efforts resulting from the 2009 and 2010 Warfighter
 Information Capability Assessment of information and intelligence collection,
 processing, analysis, dissemination, and integration with the combatant commander's
 information needs. Information in the contract file stated that the services were
 severable.

  Table 11. Information From Invoice Records for Contract Action IND10PB20014
    MIPR and Amount              Invoice.   Period Work Was Performed     Invoice Amount
   MIPR0LDORE207          INV-0001579465        10/01/10 to 10/29/11             $120,280
   $1,274,831.04
                          INV-0001580035        11/05/10 to 11/26/11              122,403
   Amendment 1
   $530,000.00            INV-0001611381        12/03/10 to 12/31/11              122,134
    Total                                                                        $364,817
    Note: Amounts are rounded.

 Contract Action IND10PD20073
 The contractor did not begin performance during the FY 2010 O&M funds’ period of
 availability (see Table 12). After reviewing how AQD-Sierra Vista used the funds, a
 potential bona fide needs rule violation occurred whether the services were severable or
 nonseverable. AQD-Sierra Vista was required by the bona fide needs rule (31 U.S.C. §
 1502[a]) and DoD FMR volume 3, chapter 8, paragraph 080303.C to fund the entire
 contract action, $9,392,385, at award if the services were nonseverable which it did not
 do (see Government Accountability Office Decision B-317139, June 1, 2009). If the
 services were severable, the funds used could be FY 2010 funds only if the services
 began in FY 2010, in order to comply with 10 U.S.C. § 2410(a) and DoD FMR, volume
 3, chapter 8, paragraph 080303.C, which did not happen (see Table 12). Section 2410a,
 title 10, United States Code is a statutory authority that permits the full obligation of
 severable contracts that begin in 1 fiscal year and end in the next, provided the contract
 period does not exceed 1 year. The contract period for performance of severable services
 must begin during the funds’ period of availability and may not exceed the funds’ period
 of availability, absent statutory authority or a legally recognized exception. On
 September 18, 2010, officials from the Office of the Assistant Secretary of the Army,
 Manpower and Reserve Affairs, issued MIPR10D1JW0013 to provide $1,800,000 of
 funds to AQD-Sierra Vista. The funds were FY 2010 Army O&M funds, which were
 available for use until September 30, 2010. The funds were to be used for contractor
 support to develop, maintain, and provide content support for a Web-based benefits and



All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 counseling information and support system for the Deputy Chief of Staff, G1, Human
 Resources Policy Directorate. On September 30, 2010, AQD-Sierra Vista officials
 accepted the DoD funds and obligated the funds by awarding contract action
 IND10PD20073, valued at $1,773,399. According to information in the contract files,
 the services were nonseverable.

  Table 12. Information From Invoice Records for Contract Action IND10PD20073
     MIPR and Amount             Invoice   Period Work Performed      Invoice Amount
    MIPR10D1JW0013          FY10-062449      10/08/10 to 10/29/10             $99,448
    $1,800,000.00           FY10-073420      12/03/10 to 12/31/10             257,003
                            FY10-065391      11/05/10 to 11/26/10             248,257
                                   1         10/04/10 to 10/31/10             124,775
                                   2         11/01/10 to 11/30/10             117,047
                                   3         12/01/10 to 12/31/10             131,166
     Total                                                                   $977,696
     Note: Amounts are rounded.

 Contract Action IND10PB20009
 The contractor did not begin performance during the FY 2010 O&M funds’ period of
 availability (see Table 13). Instead, performance began on October 1, 2010, which was
 the beginning of FY 2011. Accordingly, FY 2011 O&M funds should have been used.
 On August 5, 2010, U.S. Army Intelligence Center of Excellence, Fort Huachuca,
 Arizona, officials issued MIPR0LDO1RE206, to provide $1,658,061 of funds to AQD-
 Sierra Vista. The funds were FY 2010 Army O&M funds, which were available for use
 until September 30, 2010. The funds were to be used to document the intelligence,
 surveillance, and reconnaissance operations and organizations down to the individual
 soldier level, across the full spectrum of military operations. On September 24, 2010,
 AQD-Sierra Vista officials accepted the DoD funds. On September 29, 2010, AQD-
 Sierra Vista officials issued contract action IND10PB20009, valued at $1,534,951, for
 this DoD purchase.

  Table 13. Information From Invoice Records for Contract Action IND10PB20009
    MIPR and Amount          Invoice       Period Work Performed       Invoice Amount
    MIPR0LDO1RE206      INV-0001579348        10/01/10 to 10/29/10            $120,413
    $1,658,061.25       INV-0001580062        11/05/10 to 11/26/10             120,413
                        INV-0001611396        12/03/10 to 12/24/10             122,218
    Total                                                                     $363,044
    Note: Amounts are rounded.

 Contract Action IND10PD20028
 The contractor did not begin performance during the FY 2010 O&M funds’ period of
 availability (see Table 14). Instead, performance began on October 1, 2010, which was
 the beginning of FY 2011. Accordingly, FY 2011 O&M funds should have been used.
 On August 18, 2010, Headquarters U.S. Army Medical Command, Fort Sam Houston,




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Texas, officials issued MIPR0LH8ARD041, to provide $1,920,000 of funds to AQD-
 Sierra Vista. The funds were FY 2010 Defense Health Program O&M funds, which were
 available for use until September 30, 2010. The funds were to be used for engineering,
 integration, and support services required to operate, manage, and sustain the technical
 architecture, platforms, and clinical and business systems required for clinic operations.
 On September 2, 2010, AQD-Sierra Vista officials accepted the funds. On September 8,
 2010, AQD-Sierra Vista officials obligated the funds when awarding contract action
 IND10PB20028, valued at $1,920,000. According to information in the contract files,
 the services were severable.

   Table 14. Information From Invoice Records of Contract Action IND10PD20028
     MIPR and Amount          Invoice         Period Work Performed       Invoice Amount
    MIPR0LH8ARD041                261           10/01/10 to 10/31/10             $52,703
    $1,920,000.00                 269           11/01/10 to 11/30/10             118,581
                                  301           12/01/10 to 12/31/10             160,808
     Total                                                                      $332,092
     Note: Amounts are rounded.

 Contributing Factors
 The policy in the DoD Financial Management Regulations for Economy Act orders and
 non-Economy Act orders is not consistent. In addition, the “reasonable time” standard
 for Economy Act orders is unclear. As a result, AQD-Sierra Vista officials accepted
 DoD purchases through September, 30, 2010, the last day of the fiscal year. This made it
 difficult, if not impossible, for contract performance to begin during the funds’ period of
 availability, as required by the DoD FMR. For example, AQD-Sierra Vista officials
 awarded two of the five contract actions, which had potential bona fide rule issue
 violations, on September 30, 2010, the last day of the DoD funds’ period of availability.
 MIPRs were not specific because DoD requesting activities did not follow existing
 guidance related to the need to be specific when defining requirements.

 Economy Act and Non-Economy Act Policy Is Not Consistent
 Generally, under the bona fide needs rule; the Government should obligate annual funds
 from the current year for current-year needs. This caused problems for the Government
 when a severable service contract crossed into the next fiscal year. Congress provided
 some flexibility with 10 U.S.C. § 2410a, permitting the use of current-year funds for
 severable services crossing a fiscal year, where the performance of the services begins in
 the current year, as long the period of performance does not exceed 1 year. The bona fide
 needs rule and the flexibility provided by 10 U.S.C. § 2410a apply equally to Economy
 Act and non-Economy Act orders. To comply with these laws, the policy for Economy
 Act orders should be changed to match DoD FMR policy for non-Economy Act orders,
 requiring severable services to begin during the funds’ period of availability.

 Standard of a “Reasonable Time” Is Vague
 DoD FMR, volume 11A, chapter 3, applies to Economy Act orders. Chapter 3,
 paragraph 030405, provides that services performed under the Economy Act “shall be



All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 expected to begin within a reasonable time” after the acceptance of the order by the
 servicing organization. This vague standard of a “reasonable time” led to end-of-year
 ordering where, although the contract order had been placed in the fiscal year of the
 funds, no work began until well into the next fiscal year, thereby using funds from the
 last fiscal year for services beginning in a current fiscal year. This violated the bona fide
 needs rule (31 U.S.C. § 1502a), which requires funds to be obligated for services needed
 during the period of the funds’ availability. For the five potential bona fide needs rule
 violations, no services were expected to be performed during the period the funds were
 available for obligation. This policy also violated paragraph 030407 of chapter 3 and
 violated 10 U.S.C. § 2410a for the same reason. The policy for Economy Act orders is in
 stark contrast to the policy for non-Economy Act orders, found at volume 11A, chapter
 18, of the DoD FMR, Paragraph 180302 B.1 states: “The performance of severable
 services must begin during funds period of availability.” This policy is necessary to
 comply with the bona fide needs rule and the authority provided under 10 U.S.C. §
 2410a.

 DoD MIPRs Were Not Specific
 DoD officials prepared MIPRs that were not specific for 38 of 81 MIPRs. The 38 MIPRs
 were not specific because they did not define their requirements in detail, which they
 need to do to establish a valid obligation, pursuant to 31 U.S.C. § 1501. DoD FMR,
 volume 11A, chapters 3 and 18 identify the requirements for specificity. DoD FMR
 volume 11A, chapter 3 addresses economy act orders. The AQD-Sierra Vista contract
                                          actions were economy act orders. The AQD-
     The 38 MIPRs that were not           Herndon contract actions were non-Economy Act
     specific did not have a clear        orders. DoD FMR, volume 11A, chapter 18
       description of the services        addresses non-Economy Act orders. The
         purchased, a period of           38 MIPRs that were not specific did not have a
         performance, or both.            clear description of the services purchased, a
                                          period of performance, or both. Appendix F
 identifies the DoD MIPRs that were not specific. DoD officials also prepared MIPRs that
 were not specific during two previous DOI audits (see Table 15).

   Table 15. Prior DOI Audits Where We Identified MIPRs That Were Not Specific
           DoD-IG Report Title              Report No.      Report Date     MIPRS That Were
                                                                              Not Specific
 FY 2005 DoD Purchases Made Through the     D-2007-044       01/16/07            65 of 103
 Department of the Interior
 FY 2006 and FY 2007 DoD Purchases Made     D-2008-066       03/19/08            31 of 47
 Through the Department of the Interior


 Conclusion
 The five potential bona fide needs rule violations occurred primarily because the policy
 in the DoD FMR for Economy Act orders and non-Economy Act orders is not consistent
 and the “reasonable time” standard for Economy Act orders is unclear. In addition,
 AQD-Sierra Vista contracting personnel accepted DoD purchases at the end of the fiscal



All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 year, making it difficult, if not impossible, for contract performance to begin during the
 funds’ period of availability. As a result, funds were not used for the purposes mandated
 by Congress.

 Recommendations, Management Comments, and Our
 Response
 B.1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
 Financial Officer:

        a. Update the DoD Financial Management Regulation to state that the bona
 fide needs rule and the flexibility provided by section 2410a, title 10, United States
 Code, applies equally to Economy Act and non-Economy Act orders. Specifically,
 the policy for Economy Act orders should be changed to match that for non-
 Economy Act orders, requiring severable services to begin during the funds’ period
 of availability.

 Under Secretary of Defense (Comptroller)/Chief Financial Officer
 Comments
 The Under Secretary of Defense (Comptroller)/Chief Financial Officer agreed, stating
 that the Office of the Deputy Chief Financial Officer will update DoD Financial
 Management Regulation 7000.14.R, volume 11A, chapter 3, “Economy Act,” and
 chapter 18, “Non-Economy Act,” to state that the bona fide needs rule and the flexibility
 provided by section 2410a, title 10, United States Code, applies equally to Economy Act
 and non-Economy Act orders.

         b. Instruct DoD Components to follow existing guidance on the need to be
 specific in defining requirements, including a clear description of the services or
 goods being purchased and a period of performance, when they prepare military
 interdepartmental purchase requests.


 Under Secretary of Defense (Comptroller)/Chief Financial Officer
 Comments
 The Under Secretary of Defense (Comptroller)/Chief Financial Officer agreed, stating
 that the Office of the Deputy Chief Financial Officer will issue a policy memorandum to
 remind Components to adhere to existing guidance in DoD Financial Management
 Regulation 7000.14.R, volume 11A, chapter 3, paragraph 030401, and chapter 18,
 paragraph 180203A.

 Our Response
 The Under Secretary of Defense (Comptroller)/Chief Financial Officer’s comments were
 responsive, and no further comments are required.

 B.2. We recommend that the Assistant Secretary of the Army (Financial
 Management and Comptroller) instruct activities having potential bona fide needs



All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 rule violations to initiate action and oversee the process to adjudicate the potential
 violations.

 Department of the Army Comments
 The Assistant Secretary of the Army (Financial Management and Comptroller) agreed,
 stating that his office is reviewing the five contracts and issued memoranda on
 August 17, 2011, directing the appropriate commands to provide his office with
 additional information on these contract actions and to report any suspected violations.
 He stated that the initial review of the Army National Guard contract indicated that the
 contract was funded correctly and was a bona fide need of FY 2010 and that the
 remaining reviews will be completed in the next 90 days.

 Our Response
 The Assistant Secretary of the Army (Financial Management and Comptroller) comments
 were responsive, and no further comments are required.




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Appendix A. Scope and Methodology
 We conducted this performance audit from October 2010 through April 2012 in
 accordance with generally accepted government auditing standards. Those standards
 require that we plan and perform the audit to obtain sufficient, appropriate evidence to
 provide a reasonable basis for our findings and conclusions based on our audit objectives.
 We believe that the evidence obtained provides a reasonable basis for our findings and
 conclusions based on our audit objectives. We performed this audit as required by
 Section 801, Public Law 110-181, of the National Defense Authorization Act for Fiscal
 Year 2008, January 28, 2008. The Act requires the Inspectors General of DoD and DOI
 to conduct a joint review of interagency transactions between DoD and DOI.

 Universe Information
 Initially, we used the Federal Procurement Data System-Next Generation database to
 identify a universe of assisted acquisitions that AQD-Herndon and AQD-Sierra Vista
 awarded for DoD purchases during FY 2010. We selected the AQD-Herndon and AQD-
 Sierra Vista contracting offices because they obligated more DoD funds than the other
 DOI contracting offices did. During FY 2010, AQD-Herndon contracting officials
 executed 1,001 contract actions that obligated $1.1 billion of funds. Of those,
 347 contract actions that obligated funds of $521.1 million were for purchases AQD-
 Herndon officials made on behalf of DoD customers. DoD requesting activities business
 represented 48 percent of AQD-Herndon’s overall business for FY 2010. During the
 same time period, AQD-Sierra Vista contracting officials executed 640 contract actions
 that obligated $498.7 million of funds. Of this, 464 contract actions, with obligated funds
 of $434.3 million, were for purchases AQD-Sierra Vista made on behalf of DoD
 customers. DoD business represented 87 percent of AQD-Sierra Vista’s overall business
 in FY 2010.

 Sample Information
 We selected a nonstatistical sample of 56 assisted contract actions, valued at
 $133.4 million, which AQD-Herndon and AQD-Sierra Vista contracting officials
 awarded. AQD-Herndon contracting officials awarded 28 of the contract actions, valued
 at $63.5 million, and AQD-Sierra Vista contracting officials awarded 28 contract actions,
 valued at $69.9 million. Of the 56 contract actions we reviewed, 50 contract actions were
 for services, and 6 contract actions were for products. None of the 56 contract actions
 were for purchases of furniture. We reviewed the 56 contract actions in the following
 areas:

    •   compliance with defense procurement requirements (56 contract actions),
    •   advance billing (56 contract actions),
    •   use of expired funds (56 contract actions),
    •   furniture purchases (56 contract actions),
    •   competition (45 contract actions),
    •   price reasonableness determinations (48 contract actions), and
    •   use of funds (42 contract actions).




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Use of Computer-Processed Data
 We used the Federal Procurement Data System-Next Generation database to identify
 assisted acquisition purchases that DOI made on behalf of DoD in FY 2010. We did not
 perform a reliability assessment of the quality of the data because we used the data only
 to identify DoD purchases to review. Once we selected a purchase, we reviewed it using
 the documentation from the DOI contract files. Therefore, the computer-processed data
 did not affect the performance of our audit steps.




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 Appendix B. Prior Coverage
 During the last 6 years, the Government Accountability Office (GAO), the DoD Inspector
 General (DoD IG), the U.S. Department of the Army, the Department of Energy
 Inspector General (DOE IG), and the Veterans Administration Inspector General (VA IG)
 issued 32 reports discussing interagency acquisitions. Unrestricted GAO reports can be
 accessed at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
 http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
 and gao.gov domains over the Internet at https://www.aaa.army.mil/. Unrestricted DOE
 IG reports can be accessed at http://www.ig.energy.gov/reports.htm. Unrestricted VA IG
 reports can be accessed at http://www.va.gov

 GAO
 GAO Report No. GAO-11-394T, “GAO's 2011 High Risk Series: An Update,”
 February 17, 2011

 GAO Report No. GAO-11-41, “NIST’s Interagency Agreements and Workload Require
 Management Attention,” October 20, 2010

 GAO Report No. GAO-10-862T, “Contracting Strategies: Better Data and Management
 Needed to Leverage Value of Interagency and Enterprisewide Contracts,” June 30, 2010

 GAO Report No. GAO-10-367, “Contracting Strategies: Data and Oversight Problems
 Hamper Opportunities to Leverage Value of Interagency and Enterprisewide Contracts,”
 April 29, 2010

 GAO Report No. GAO-08-1063, “DoD Financial Management Improvements Are
 Needed In Antideficiency Act Controls and Investigations,” September 26, 2008

 DoD IG
 DoD IG Report No. D-2011-021, “More DoD Oversight Needed for Purchases Made
 Through the Department of Energy,” December 3, 2010

 DoD IG Report No. D-2011-018, “FY 2008 and FY 2009 DoD Purchases Made Through
 the General Services Administration,” November 30, 2010

 DoD IG Report No. D-2009-064, “FY 2007 DoD Purchases Made Through the National
 Institutes of Health,” March 24, 2009

 DoD IG Report No. D-2009-043, “FY 2007 DoD Purchases Made Through the U.S.
 Department of Veterans Affairs,” January 21, 2009

 DoD IG Report No. D-2008-122, “Follow-up on DoD Purchases Made Through the
 Department of the Interior,” August 18, 2008




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
 DoD IG Report No. D-2008-082, “Summary Report on Potential Antideficiency Act
 Violations Resulting From DoD Purchases Made Through Non-DoD Agencies (FY 2004
 Through FY 2007),” April 25, 2008

 DoD IG Report No. D-2008-066, “FY 2006 and FY 2007 DoD Purchases Made Through
 the Department of the Interior,” March 19, 2008

 DoD IG Report No. D-2008-050, “Report on FY 2006 DoD Purchases Made Through the
 Department of the Treasury,” February 11, 2008

 DoD IG Report No. D-2008-036, “FY 2006 DoD Purchases Made Through the U.S.
 Department of Veterans Affairs,” December 20, 2007

 DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made Through the National
 Institutes of Health,” November 15, 2007

 DoD IG Report No. D-2008-007, “Task Orders on the Air Force Network-Centric
 Solutions Contract,” October 25, 2007

 DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
 Department of the Interior,” January 16, 2007

 DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on DoD
 Purchases Made Through Non-DoD Agencies,” January 2, 2007

 Army
 U.S. Army Audit Agency Report No. A-2009-0016-FFH, “Acquisition Made Using
 Military Interdepartmental Purchase Requests, U.S. Army Medical Command,”
 November 17, 2008

 U.S. Army Audit Agency Report No. A-2007-0096-FFH, “Proper Use of Non-DoD
 Contracts, U.S. Army Medical Command,” March 22, 2007

 DOE IG
 DOE IG Report No. DOE/IG-0829, “Work for Others Performed by the Department of
 Energy for the Department of Defense,” October 26, 2009

 VA IG
 VA IG Report No. 06-03540-24, “Audit of VA Purchases Made on Behalf of the
 Department of Defense,” November 19, 2007

 VA IG Report No. 04-03178-139, “Audit of VA Acquisitions for Other Government
 Agencies,” May 5, 2006




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
     Appendix C. DoD Purchases Reviewed
     Contract and Order     Contract                    Purchase Description                                    DoD Activity                    Contract Vehicle Used
                             Value
                                                                             AQD-Herndon
     INN06PC10437            $4,991,841   Engineering support services related to completion      Material Support Division                   AQD-Herndon
      INN10PD18055                        and implementation support of a new C-130 wheel         Hill Air Force Base, Utah                   existing contract
                                          and brake system improvement Phase IV for the
                                          Applied Technologies for Landing Systems
                                          program
     INNG07DA18B              2,032,535   Services for sustainment and optimization of all        Lackland Air Force Base 67th Wing           NASA Solutions for
      INN09PD10716/008                    Cisco Systems, Inc. hardware                            Lackland Air Force Base, Texas              Enterprise-Wide
                                                                                                                                              Procurement Contract
     GS23F8006H                955,291    Services related to the adolescent substance abuse      Adolescent Substance Abuse Counseling       GSA Federal supply
      INN10PB18421                        counseling services program                             Services, U.S. Air Force                    schedule
                                                                                                  Multiple installations
     GS35F4357D                375,217    Technical support service support to the access         U.S. Southern Command,                      GSA Federal supply
30




      IND10PD18571                        control system hardware, software, and                  Miami, Florida                              schedule
                                          infrastructure
     GS23F8006H                231,731    Services related to the adolescent substance abuse      Adolescent Substance Abuse Counseling       GSA Federal supply
      INN10PB18423                        counseling services program                             Services, U.S. Marine Corps, Multiple       schedule
                                                                                                  installations
     GS23F8006H                218,860    Support services for “Facilitation of Defense           Office of the Secretary of Defense          GSA Federal supply
     IND10PD18691                         Science Board Task Force Study on Predicting            Defense Science Board                       schedule
                                          Violent Behavior”                                       Pentagon
     GS23F8006H                216,688    Support services related to a project titled “Defense   Office of Secretary of Defense /Defense     GSA Federal supply
      INN10PD18350                        Science Board Task Force on the Assessment of           Science Board,                              schedule
                                          Nuclear Treaty Monitoring and Verification              Pentagon
                                          Technologies”
     GS23F8006H                216,688    Support services related to a project titled “Defense   Office of Secretary of Defense /Defense     GSA Federal supply
      INN10PD18352                        Science Board Advisory Group on Defense                 Science Board,                              schedule
                                          Intelligence”                                           Pentagon
     GS00F0013R              10,000,000   Advisory/assistance support services for the Task       DoD Task Force for Business and Stability   GSA Federal supply
      IND10PD18556                        Force for Business and Stability Operations in the      Operations                                  schedule
                                          Central Command area of operations in                   Arlington, Virginia
                                          Afghanistan




                          All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
     Contract and Order     Contract                    Purchase Description                                  DoD Activity                     Contract Vehicle Used
                             Value
     GS00F0013R               9,987,716   Advisory/assistance support services for the task     DoD Task Force for Business and Stability     GSA Federal supply
      IND10PD18556/001                    force for business and stability operations in the    Operations                                    schedule
                                          central command area of operations in Afghanistan     Arlington, Virginia
     INN06PC10439              182,000    Systems engineering and technical assistance          National Security Space Office                AQD-Herndon existing
      INN10PD18104                        services                                              Pentagon                                      contract
     GS23F9755H                170,542    Analytical and technical support services             U.S. Air Force Directorate of Strategic       GSA Federal supply
      INN10PD18216                                                                              Planning, Headquarters U.S. Air Force         schedule
                                                                                                A8X, Pentagon
     GS23F8006H                154,792    Government site analytical support services           Air Force Directorate of Strategic Planning   GSA Federal supply
      INN10PD18224                        supporting U.S. Air Force, Directorate of Strategic   Headquarters U.S. Air Force A8X,              schedule
                                          Planning, Long Range Plans Division                   Pentagon
     W91QUZ09D0043            3,782,801   Bar coding hardware related to the Army’s             Army Installation Management Systems          Existing DoD contract
      INN10PD18265                        Installation Support Modules system                   Fort Belvoir, Virginia
     W91QUZ06D0016            1,500,000   Help desk and network systems management              Department of the Army                        Existing DoD contract
      INN10PD18153                        support services                                      Installation Management Systems
                                                                                                Fort Belvoir, Virginia
31




     W91QUZ06D0016             522,920    Support services related to helpdesk and network      Department of the Army                        Existing DoD contract
      INN10PD18153/001                    systems management support                            Installation Management Systems
                                                                                                Fort Belvoir, Virginia
     W91QUZ06D0016              50,000    Support services related to helpdesk and network      Department of the Army                        Existing DoD contract
      INN10PD18153/003                    systems management support                            Installation Management Systems
                                                                                                Fort Belvoir, Virginia
     GS35F4461G               1,086,126   Technical support services for survey, system         Department of the Army                        GSA Federal supply
      INN10PD18140                        engineering, installation, upgrade, and integration   Installation Management Systems               schedule
                                          of the Management Support System program              Fort Belvoir, Virginia
     IND10PX18617               17,736    Citrix license update                                 Department of the Army                        AQD-Herndon
                                                                                                Installation Management Systems               new contract
                                                                                                Fort Belvoir, Virginia
     W91QUZ07D0006              18,755    3 Dell R710 PowerEdge servers                         Department of the Army                        Existing DoD contract
      INN10PD18428                                                                              Installation Management Systems
                                                                                                Fort Belvoir, Virginia
     INN10PC18314             7,081,380   Ten 25K loaders                                       Naval Sea Systems Command                     AQD-Herndon
                                                                                                Washington, D.C.                              new contract




                          All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
     Contract and Order     Contract                    Purchase Description                                 DoD Activity               Contract Vehicle Used
                             Value
     GS07F9392S                213,469    903 compact life preservers                          Naval Sea Systems Command,              GSA Federal supply
      INN10PD18425                                                                             Washington, D.C.                        schedule
     DABL0103A1006              85,288    IBM software license renewal                         Field Support Activity Navy (Chief of   Existing DoD contract
      IND10PD18613                                                                             Naval Operations/Director Navy Staff)
                                                                                               1013 O Street, Washington, D.C.
     W91QUZ07D0004            2,274,824   Information technology services                      National Guard Bureau                   Existing DoD contract
      INN09PD10053/014                                                                         1411 Jefferson Davis Highway
                                                                                               Arlington, Virginia
     W91QUZ07D0004            5,346,558   Information technology services                      National Guard Bureau                   Existing DoD contract
      INN09PD10053/009                                                                         111 South George Mason Drive
                                                                                               Arlington, Virginia
     W91QUZ07D0004             300,128    Information technology services                      National Guard Bureau                   Existing DoD contract
      INN09PD10053/011                                                                         111 South George Mason Drive
                                                                                               Arlington, Virginia
     W91QUZ07D0004           10,522,821   Information technology services                      National Guard Bureau                   Existing DoD contract
      INN09PD10053/008                                                                         111 South George Mason Drive
32




                                                                                               Arlington, Virginia
     GS10F0189T                956,277    National Guard Bureau independent verification       Army National Guard Bureau              GSA Federal supply
      INN10PD18229                        and validation support                               111 South George Mason Drive            schedule
                                                                                               Arlington, Virginia
                                                                            AQD-Sierra Vista
     GS35F4357D              11,714,234   Support services related to the Battle Command       National Guard Bureau                   GSA Federal supply
      INN10PD20046                        Training Capability Program                          111 South George Mason Drive            schedule
                                                                                               Arlington, Virginia
     GS35F5537H              11,028,479   Information technology and professional services:    National Guard Bureau                   GSA Federal supply
      INN10PD20038                        Exportable combat training capability preparation,   111 South George Mason Drive            schedule
                                          execution, and postexercise activities project       Arlington, Virginia
     IND10PC20016             1,528,785   Services related to a new human language             Defense Advanced Research Projects      AQD-Sierra Vista
                                          technology research and development program          Agency, Comptroller                     new contract
                                          called “Robust Automatic Transcription of Speech”    3701 North Fairfax Drive
                                                                                               Arlington, Virginia




                          All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
     Contract and Order     Contract                    Purchase Description                                   DoD Activity                  Contract Vehicle Used
                             Value
     IND10PC20019              249,954    Services related to innovative ideas to advance        Defense Advanced Research Projects        AQD-Sierra Vista
                                          technology in the area of air platform, ground/sea     Agency, Comptroller                       existing contract
                                          vehicles, sensors, and space platforms                 3701 North Fairfax Drive
                                                                                                 Arlington, Virginia
     GS35F0340W               4,355,607   Products and services in support of the U.S. Army      Program Executive Office                  GSA Federal supply
      IND10PD20049                        335th Theater Signal Command in Southwest Asia         Enterprise Information Systems            schedule
                                                                                                 Product Management Area Processing Ctr.
                                                                                                 Fort Belvoir, Virginia
     GS10F0083L                526,358    Support services for the U.S. Army product             Program Executive Office                  GSA Federal supply
      IND10PD20053                        manager area processing centers to assist in           Enterprise Information Systems            schedule
                                          reviewing ongoing strategic initiatives and            Product Management Area Processing Ctr.
                                          developing a supporting plan to drive                  Fort Belvoir, Virginia
                                          transformation objectives
     GS23F0108J               2,287,040   Support services to provide a wide range of            Headquarters U.S. Army Pacific            GSA Federal supply
      IND10PD20062                        planning, deployment and employment operations,        Bldg T 102, Stop 10                       schedule
                                          logistics, maintenance, and sustainment support        Fort Shafter, Hawaii
     10PC20065                1,755,000   Support services for the move of two major Army        Network Enterprise Center                 AQD-Sierra Vista
33




                                          Commands from current locations to Fort Bragg,         2175 Reilly Road, Stop A                  new contract
                                          North Carolina: U.S. Army Forces Command and           Fort Bragg, North Carolina
                                          U.S. Army Reserve Command
     GS23F0108J                           On-site support services in Government facilities at   CDR, United States Army Pacific, G6,      GSA Federal supply
      IND10PD20029            3,207,434   Fort Shafter, Hawaii, and support as required to       Requirements Management Division          schedule
                                          U.S. Army Pacific Command units in Japan,              572 Palm Circle Drive, Bldg T-128
                                          Okinawa, and Alaska                                    Fort Shafer, Hawaii
     INDNBCHA090006           1,534,951   Services to support the intelligence community and     United States Army Intelligence Center    GSA Federal supply
      IND10PB20009                        warfighter with validated operational architectures    Fort Huachuca, Arizona                    schedule blanket purchase
                                          that document the requirements and organization of                                               agreement
                                          the U.S. Army Military Intelligence community
     INDNBCHA090006           1,459,861   Services related to follow-on efforts resulting from   United States Army Intelligence Center    GSA Federal supply
      IND10PB20014                        the 2009 and 2010 warfighter information               Fort Huachuca, Arizona                    schedule blanket purchase
                                          capability assessment of information and                                                         agreement
                                          intelligence collection, processing, analysis,
                                          dissemination, and integration with the combatant
                                          commander's information needs




                          All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
     Contract and Order     Contract                    Purchase Description                                   DoD Activity                 Contract Vehicle Used
                             Value
     INDNBCHA090006           1,361,338   On-site expertise for the Requirements                 United States Army Intelligence Center   GSA Federal supply
      IND10PB20008                        Development Directorate, US Army Intelligence          Fort Huachuca, Arizona                   schedule blanket purchase
                                          Center, Fort Huachuca, Arizona                                                                  agreement
     INDNBCHA090003            927,672    On-site contractor expertise to facilitate combat      United States Army Intelligence Center   GSA Federal supply
      IND10PB20005                        development, implementation and intensive              Fort Huachuca, Arizona                   schedule blanket purchase
                                          management of support to the distributed common                                                 agreement
                                          ground system-A program
     INDNBCHA090003            733,834    Services related to the personnel identification       United States Army Intelligence Center   GSA Federal supply
      IND10PB20015                        integrated capabilities development team,              Fort Huachuca, Arizona                   schedule blanket purchase
                                          capabilities development/integration, and Training                                              agreement
                                          and Doctrine Command Capability Manager
                                          biometrics and forensics at Fort Huachuca, Arizona
     INDNBCHA090006            309,424    Contractors will serve as subject matter experts on    United States Army Intelligence Center   GSA Federal supply
      IND10PB20012                        electronic warfare capabilities and develop specific   Fort Huachuca, Arizona                   schedule blanket purchase
                                          requirements supporting the operational needs of                                                agreement
                                          the warfighter, the test/evaluation process, and the
                                          acquisition system
34




     INDNBCHA090006            193,029    Services to enhance virtual interrogation capability   United States Army Intelligence Center   GSA Federal supply
      IND10PB20011                                                                               Fort Huachuca, Arizona                   schedule blanket purchase
                                                                                                                                          agreement
     INDNBCHA090006            154,712    Subject matter experts to provide on-site contractor   United States Army Intelligence Center   GSA Federal supply
      IND10PB20013                        expertise for military intelligence requirements       Fort Huachuca, Arizona                   schedule blanket purchase
                                                                                                                                          agreement
     NBCHA090006               154,712    Services to provide on-site contractor expertise for   United States Army Intelligence Center   GSA Federal supply
      IND10PB20007                        development, analysis and production of capability     Fort Huachuca, Arizona                   schedule blanket purchase
                                          development documentation for technical                                                         agreement
                                          intelligence and weapons intelligence teams
     INDNBCHA090006            154,712    On-site contractor expertise for development           United States Army Intelligence Center   GSA Federal supply
      IND10PB20006                        analysis and production of integrated support to the   Fort Huachuca, Arizona                   schedule blanket purchase
                                          U.S. Army Intelligence Center efforts to integrate                                              agreement
                                          intelligence operations with brigade Brigade
                                          Combat Team modernization
     INDNBCHA090003            147,359    Services related to the immediate and timely           United States Army Intelligence Center   GSA Federal supply
      IND10PB20004                        retrieval, analysis, and recommendations on            Fort Huachuca, Arizona                   schedule blanket purchase
                                          personnel and equipment data                                                                    agreement




                          All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
     Contract and Order    Contract                    Purchase Description                                  DoD Activity                       Contract Vehicle Used
                            Value
     GS35F0398V              1,920,000   Information technology site manager support          Headquarters U.S. Army Medical Command          GSA Federal supply
      IND10PD20028                       services for the U.S. Army Headquarters Medical      2050 Worth Road, Suite 9                        schedule
                                         Command standardization initiative which will        Fort Sam Houston, Texas
                                         provide and operate health care provider required
                                         IT applications
     GS35F0261K               189,066    Services for purpose of complying with the DoD        National Guard Bureau, Army Training           GSA Federal supply
      IND10PD20076                       information assurance certification and               Division Battle Command Training               schedule
                                         accreditation program                                 Center-Dodge
                                                                                               7105 North West 70th Avenue
                                                                                               Camp Dodge, Johnston, Iowa
     INDNBCHD080004         10,217,940   Services to coordinate, schedule, and conduct         The Office of the Assistant Secretary of the   AQD-Sierra Vista
      IND10PD20004                       sexual harassment and assault prevention training     Army, Manpower and Reserve Affairs,            existing contract
                                         worldwide                                             Pentagon
     INDNBCHD080004          7,450,170   Services to inform young adults and those who         The Office of the Assistant Secretary of the   AQD-Sierra Vista
      IND10PD20023                       influence them about the benefits of joining the      Army, Manpower and Reserve Affairs,            existing contract
                                         Army                                                  Pentagon
     INDNBCHD080004          3,918,966   Analytical, management and advisory services          The Office of the Assistant Secretary of the   AQD-Sierra Vista
35




      IND10PD20061                       related to civilian workforce transformation          Army, Manpower and Reserve Affairs,            existing contract
                                                                                               Pentagon
     INDNBCHD080004           552,350    Services to provide new Army executives an            The Office of the Assistant Secretary of the   AQD-Sierra Vista
      IND10PD20063                       executive on boarding course that provides skills     Army, Manpower and Reserve Affairs,            existing contract
                                         critical as a key member of the Army leadership       Pentagon
                                         team
     GS23F8023H              1,773,399   Services to provide support for a Web-based           The Office of the Assistant Secretary of the   GSA Federal supply
      IND10PD20073                       benefits and counseling information and support       Army, Manpower and Reserve Affairs,            schedule
                                         system for the Deputy Chief of Staff, G1, Human       Pentagon
                                         Resources Policy Directorate
     INDNBCHP090077           148,996    Support services to maintain the technical support    National Defense University, Information       AQD-Sierra Vista
      Modification 01                    to staff e-Learning Solutions Group                   Resource Management College                    existing contract /
                                                                                               Fort Lesley J. McNair                          modification
                                                                                               Washington, D.C.
      Note: Amounts are rounded.




                          All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
     Appendix D. AQD-Herndon Contracting Problems
        Contract          Order           Inadequate        Inadequate        Inadequate         Inadequate      Product
                                             Price         Competition         Review of        Independent        or
                                        Reasonableness    (Initial Award    Contractor Cost     Government       Service
                                        (Initial Award         Only)           Proposals       Cost Estimates
                                             Only)                          (Services Only)    (Services Only)
     GS00F0013R      IND10PD18556              ●                                    ●                 ●           Service
     GS00F0013R      IND10PD18556/001    Did not review    Did not review     Did not review    Did not review    Service
     NNG07DA18B      INN09PD10716/008    Did not review    Did not review     Did not review    Did not review    Service
     GS35F4357D      IND10PD18571                                                                     ●           Service
     DABL0103A1006   IND10PD18613                                             Did not review    Did not review   Product
     GS23F8006H      IND10PD18691                                                                     ●           Service
                     IND10PX18617                                             Did not review    Did not review   Product
36




     W91QUZ07D0004   INN09PD10053/008    Did not review    Did not review     Did not review    Did not review    Service
     W91QUZ07D0004   INN09PD10053/009    Did not review    Did not review     Did not review    Did not review    Service
     W91QUZ07D0004   INN09PD10053/011                      Did not review           ●                 ●           Service
     W91QUZ07D0004   INN09PD10053/014    Did not review    Did not review     Did not review    Did not review    Service
     GS23F8006H      INN10PB18421              ●                                    ●                 ●           Service
     GS23F8006H      INN10PB18423              ●                                    ●                 ●           Service
                     INN10PC18314                                             Did not review    Did not review   Product
     INN06PC10437    INN10PD18055                                                                     ●           Service
     INN06PC10439    INN10PD18104                          Did not review                             ●           Service
     GS35F4461G      INN10PD18140              ●                 ●                  ●                 ●           Service
     W91QUZ06D0016   INN10PD18153                                                                     ●           Service
     W91QUZ06D0016   INN10PD18153/001    Did not review    Did not review     Did not review    Did not review    Service
     W91QUZ06D0016   INN10PD18153/003    Did not review    Did not review     Did not review    Did not review    Service
     GS23F9755H      INN10PD18216              ●                 ●                  ●                 ●           Service
     GS23F8006H      INN10PD18224              ●                 ●                  ●                 ●           Service
     GS10F0189T      INN10PD18229              ●                 ●                  ●                 ●           Service




                     All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
          Contract                 Order               Inadequate             Inadequate             Inadequate             Inadequate                Product
                                                          Price              Competition              Review of            Independent                  or
                                                     Reasonableness         (Initial Award         Contractor Cost         Government                 Service
                                                     (Initial Award              Only)                Proposals           Cost Estimates
                                                          Only)                                    (Services Only)        (Services Only)
      W91QUZ09D0043          INN10PD18265                                                            Did not review          Did not review               Product
      GS23F8006H             INN10PD18350                    ●                                                                     ●                      Service
      GS23F8006H             INN10PD18352                    ●                                             ●                       ●                      Service
      GS07F9392S             INN10PD18425                                           ●                Did not review          Did not review               Product
      W91QUZ07D0006          INN10PD18428                                                            Did not review          Did not review               Product
       Total                                               9 of 21                5 of 19                9 of 15                15 of 15
     Note: Blank spaces indicates contract actions that have been reviewed with no errors found.
           ● indicates contract actions that have been reviewed with errors found.
           “Did not review” indicates contract actions that were not reviewed because they were either contract modifications or purchases of products.
37




                            All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
     Appendix E. AQD-Sierra Vista Contracting Problems
         Contract           Order         Inadequate       Inadequate        Inadequate        Inadequate      Product or
                                             Price        Competition         Review of       Independent       Service
                                        Reasonableness   (Initial Award    Contractor Cost    Government
                                        (Initial Award        Only)           Proposals      Cost Estimates
                                             Only)                         (Services Only)   (Services Only)
     GS35F4357D         INN10PD20046          ●                                  ●                  ●            Service
     GS35F0261K         IND10PD20076                                                                ●            Service
     GS35F5537H         INN10PD20038          ●                                  ●                  ●            Service
     GS35F0340W         IND10PD20049                                                                ●            Service
     GS23F8023H         IND10PD20073          ●                                  ●                  ●            Service
                        IND10PC20016          ●                                  ●             Not required      Service
     INDNBCHA090003     IND10PB20005                                             ●                  ●            Service
38




     INDNBCHA090003     IND10PB20015                                             ●                  ●            Service
     INDNBCHD080004     IND10PD20063          ●                                  ●                  ●            Service
                        IND10PC20019          ●           Did not review         ●             Not required      Service
     INDNBCHA090006     IND10PB20013                                             ●                  ●            Service
     INDNBCHD080004     IND10PD20004          ●                                  ●                  ●            Service
     INDNBCHD080004     IND10PD20023          ●                                  ●                  ●            Service
     INDNBCHD080004     IND10PD20061          ●                                  ●                  ●            Service
     GS35F0398V         IND10PD20028          ●                                  ●                  ●            Service
                        IND10PC20065                                                                ●            Service
     GS10F0083L         IND10PD20053          ●                                  ●                  ●            Service
     INDNBCHA090006     IND10PB20009                                             ●                  ●            Service
     INDNBCHA090006     IND10PB20014          ●                                  ●                  ●            Service
     INDNBCHA090006     IND10PB20008                                             ●                  ●            Service
     INDNBCHA090006     IND10PB20011          ●                                  ●                  ●            Service
     INDNBCHA090006     IND10PB20007                                                                ●            Service
     INDNBCHA090003     IND10PB20004                                             ●                  ●            Service




                      All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
            Contract                 Order               Inadequate             Inadequate            Inadequate             Inadequate             Product or
                                                            Price              Competition             Review of            Independent              Service
                                                       Reasonableness         (Initial Award        Contractor Cost         Government
                                                       (Initial Award              Only)               Proposals           Cost Estimates
                                                            Only)                                   (Services Only)        (Services Only)
      GS23F0108J               IND10PD20029                    ●                                             ●                                            Service
      GS23F0108J               IND10PD20062                    ●                                             ●                                            Service
      INDNBCHA090006           IND10PB20012                                                                                         ●                     Service
      INDNBCHA090006           IND10PB20006                                                                  ●                      ●                     Service
      INDNBCHP090077/001                                 Did not review         Did not review         Did not review        Did not review               Service
       Total                                                15 of 27                0 of 26               22 of 27              23 of 25
     Note: Blank spaces indicates contract actions that have been reviewed with no errors found.
           ● indicates contract actions that have been reviewed with errors found.
           “Did not review” indicates contract actions that were not reviewed because they were either contract modifications or purchases of products.
39




                            All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
  Appendix F. MIPRs That Were Not Specific
       DOI Contract              DoD Requesting Activity                              Issues
        DoD MIPR
                                           AQD-Herndon
IND10PD18556              DoD Task Force for Business and            1) Did not define requirements in detail
   1) HQ011702624         Stability Operations
                          Arlington, Virginia
IND10PD18556 (Mod. 1*)    DoD Task Force for Business and            2) Did not define requirements in detail
   2) HQ011702688         Stability Operations                       2) No period of performance
   3) HQ011702690         Arlington, Virginia                        3) Did not define requirements in detail
                                                                     3) No period of performance
IND10PD18571              U.S. Southern Command                      4) Did not define requirements in detail
   4) MIPR0LO14C6040      Miami, Florida
IND10PD10053 (Mod. 11)    National Guard Bureau                      5) No period of performance
   5) F9WFJS0110G001      111 South George Mason Drive
                          Arlington, Virginia
INN10PB18421              Adolescent Substance Abuse Counseling      6) Did not define requirements in detail
   6) F1ATA10173G001      Services, Multiple installations           6) No period of performance
   7) F2CFMD0097G001                                                 7) No period of performance
   8) F2CFMD0159G002                                                 8) No period of performance
INN10PD18153 (Mod. 3)     Army Installation Management Systems       9) No period of performance
   9) MIPR0CQ8AA0011 A1   Fort Belvoir, Virginia

INN10PD18229              National Guard Bureau                      10) Did not define requirements in detail
   10) MIPR0ANBCIS005     111 South George Mason Drive
                          Arlington, Virginia
INN10PD18265              Department of the Army                     11) No period of performance
   11) MIPR9MQ9TH0005     Installation Management Systems,           12) No period of performance
   12) MIPR0GQ8AL0001     Fort Belvoir, Virginia                     13) No period of performance
   13) MIPR0GQ8AM0001                                                14) No period of performance
   14) MIPR9MQ9CD0006
                          U.S. Air Force Directorate of Strategic    15) Did not define requirements in detail
INN10PD18224
                          Planning, Headquarters U.S. Air Force
   15) F1AF1K005.01
                          A8X, Pentagon
                                         AQD-Sierra Vista
IND10PB20007              U.S. Army Intelligence Center              16) Did not define requirements in detail
   16) MIPR0LDOIRE209     Fort Huachuca, Arizona
IND10PC20016              Defense Advanced Research Projects         17) Did not define requirements in detail
   17) 10-Z996            Agency, Controller                         17) No period of performance
                          3701 North Fairfax Drive
                          Arlington, Virginia
IND10PC20019              Defense Advanced Research Projects         18) Did not define requirements in detail
   18) 10-C739            Agency, Controller                         18) No period of performance
                          3701 N. Fairfax Drive
                          Arlington, Virginia
IND10PC20065              Network Enterprise Center                  19) Did not define requirements in detail
   19) MIPR0MDIBSN553     2175 Reilly Road, Stop A
                          Fort Bragg, North Carolina
IND10PD20073              The Office of the Assistant Secretary of   20) Did not define requirements in detail
   20) 10D1JW0013         the Army, Manpower and Reserve             20) No period of performance
                          Affairs, Pentagon




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
      DOI Contract             DoD Requesting Activity                                 Issues
       DoD MIPR
IND10PD20028               Headquarters U.S. ARMY Medical             21) No period of performance
   21) MIPR0LH8ARD041      Command
                           2050 Worth Road, Suite 9
                           Fort Sam Houston, Texas
IND10PB20005               U.S. Army Intelligence Center              22) Did not define requirements in detail
   22) MIPR0LDOIRE214      Fort Huachuca, Arizona                     23) Did not define requirements in detail
   23) MIPR0LDOIRE214 A1
IND10PB20015               United States Army Intelligence Center,    24) Did not define requirements in detail
   24) MIPR0LDOIRY218      Fort Huachuca, Arizona
IND10PB20008               United States Army Intelligence Center,    25) Did not define requirements in detail
   25) MIPR0LDOIRE212      Fort Huachuca, Arizona
IND10PB20009               United States Army Intelligence Center,    26) Did not define requirements in detail
   26) MIPR0LDOIRE206      Fort Huachuca, Arizona
IND10PB20012               United States Army Intelligence Center,    27) Did not define requirements in detail
   27) MIPR0LDOIRE208      Fort Huachuca, Arizona
IND10PB20013               United States Army Intelligence Center,    28) Did not define requirements in detail
   28) MIPR0LDOIRE210      Fort Huachuca, Arizona
IND10PB20014               United States Army Intelligence Center,    29) Did not define requirements in detail
   29) MIPR0LDOIRE207      Fort Huachuca, Arizona                     30) Did not define requirements in detail
   30) MIPR0LDOIRE207 A1
IND10PD20004               Office of the Assistant Secretary of the   31) No period of performance
   31) MIPR10D1JA0007      Army, Manpower and Reserve Affairs
                           Pentagon
IND10PD20023               The Office of the Assistant Secretary of   32) No period of performance
   32) MIPR10L1AM0008      the Army, Manpower and Reserve Affairs
                           Pentagon
IND10PD20061               The Office of the Assistant Secretary of   33) No period of performance
   33) MIPR10D1AA0003      the Army, Manpower and Reserve Affairs     34) No period of performance
   34) MIPR10D1AA0003-1    Pentagon                                   35) No period of performance
   35) MIPR10D1AA0003-2
IND10PD20063               The Office of the Assistant Secretary of   36) No period of performance
   36) MIPR10LKAA0020      the Army, Manpower and Reserve Affairs     37) No period of performance
   37) MIPR10LKAA0020-1    Pentagon
IND10PB20006               United States Army Intelligence Center,    38) Did not define requirements in detail
   38) MIPR0LDOIRE211      Fort Huachuca, Arizona
  *Modification.




All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
Department of the Interior Comments




                            United States Department of the Interior
                                           OFI'ICE OF THE SECRETAilY
                                                Wnshhl(liOn, DC 20210

                                                    FEB 2      2012



       Mr. Dnnicl It Bluir
       Dcp!U1mcnt ofDefense Onicc ofluspcctor Oencn1l
       Onicc of the Deputy Inspector Ocneml for Auditing
       4800 Mnrk Center Drive
       AlclUUldria, VA 22350-1500

       Denr Mr. Dlnir:

       'J11e JJcpartment of the Interior (Interior) npprccintcs the opportunity to provide nn oillcial response to
       tho droll re11ort titled "DoD's FY 2012 Purchnscs Mnde 11uough the Department oftho Interior",
       dutcd January 6, 2012 (DOl 1'1·ojcct No. ER-IN-NRC-0001-201 1).

       'f11c Dcpmtment of Defense (DoD) commen(.'Cd 11 review oflhc potcntiol Auti-Delicicncy Act (ADA)
       violations identified in the referenced report within the required ten-dny window. ·n,is review is
       ongoing, nnd Interior will work with DoD to ensure that any issues arc corrected.

        Interior concurs with the one recommendation di~c loscd in two 11a11s within the rcpm1. In gcncml, we
       promote the use of cstoblishecl sources (including contmcts nwurdcd by other ogcncics) where
       npproprinte in order to mn.,dmlzc eiTicicncy nnd to achieve economics of scnlc. However, cncctive
       communicntion between the acquisition ofiice nmllhc requesting nctivily is essential d1wing the
       acquisition plruming process. 'Jlleteforc, in response to rccommcndution lA Prut A, Interior will
       deploy a mwmgcmcnt corrective uction piRn thnt will strengthen our process to lnfomt DoD
       requesting uctivilics of the intent to use contracts from other Federal agencies for DoD purchnscs. In
       response to recommendation IA Pm1 D, lntctior will enhru1cc price rcnsonnblcncss dctcnninntions for
       contract nctions nwnrdcd using competitive procedures when one ofii:r is received. Enclosure I
       provides a Stntcmcul ofMmmgcment Actions plmmcd by Interior to implement the tO's
       recommendations. Ench action lists the name of the responsible official nnd the target dute for
       implemcntntion.

       lntcrior has nlso reviewed the internnl control weaknesses and other findings ldcntilicd in the l'Cil011.
       In response to these findings, Interior will take :~ction to strengthen existing intcmnl controls over the
       acquisition process, for cxnmplc, by providing ndditional tmining to acquisition stnffregnrding the
       bonn fide needs rulo nnd the specificity required on oblignting documents. Interior will also work with
       DoD ofiici:1ls to ensure tltutull findings and rcconuncndntions in the rcp01t nro illltllemcntcd
       cfTcclivcly.




                                                                         42
   All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
Department of the Interior Comments




                                Sincerely,

                                 ~/ .. . 1j d.J..,.(fr'1
                                R~~
                                Assistant Secretary
                                ,JoHey. Mllllogcmcnt nnd [)udgel



       Enclosure

      cc:




                                               43
   All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
Department of the Interior Comments




                                            DepArtment of the Interior
          Sintement of Actions on the Don's FY2012 PUl'cbn!lc Mnde through the Dellfl"'lUent orille
                             Illlcl'iol' (IJOII'l'ojccl No, ER-IN-NIIC-OOOI-2011)


       To addrc.t,f ,lie /'ecomll/clu/aliolls Illlhe 5t1bjeCll'cpol'l, 'lte Secrct"')' of/he Jl1feriOl' dil'ects 'lie National
       DlIl'im!ss CCI/tel' Director 10 accomplish 'lie jill/owing 1II(fl/agf!IIIelll m:liolls.

       lG UccommcudlitiOIl At:
       We recommend that the Set:rclary ortlle htlcrior direct tbe Nntiol1ul Businc.'is Ccntcl' to iuslmcl
       Acquisition Services Dircctomtc-Hcmdun Ulld Acquisition Services Directorate-Sierra Vista to:
              8. Inronn DoD rcquc~tillg {lcli\'itic~'1 ofthcir intent to usc conlmt:ls from olher Fcdcml ngcncics
              for DoD ImrcllOscs.
              b, Belter support price rcnsonablcllc.'iS delcnnillittions for eontmct actions nwanlcd using
              compelitive procedures where only one oner is received.

      [nlcriol' RC,~ponlie to AI "Ali A: The 001 Office afthe Sccretary, Nntional Bllsincss Centcr (NBC)
      Acquisition Services Dircctomlc (AQIJ) will strengthcn our process 10 infoml ODD requesting
      activities ofthe intent to usc contracts from olher Federal ;tgencics for DoD Pll1'cilllSCS by rcquhillg
      docnmentary evidence of DoD's review of the uC<juisition slrntegy,

      Tnl'gct URIC:    JUllt 30, 2012


      RcsJlOlldblc Officlal: William Archambe,mlt, N<1titJnal Business Celller, Acting Associule Director,
      Acquisition Selviccs Dircctomtc,


      Interiol' lkliJ10IISC to AI rurl II: '111e DOl Office of the Secretary, N:llioll<11 Ousincss Celltcr (NBC)
      Acquisition Services DirtClolllte (AQD) wUl enhance price l'eusonnblencss delennillutions for cOlllmct
      action nwnrded llsing competitivc procedures when only one oller is received, AQD will implement
      policies lind procedures to clI:,;urc that price rensonablencS!; detcl111inutions nreudcqunlcly suppol1eo
      find that competition is sought to the maximum extcnt prneticublc.

      Tl1l'gcl DnCe: JUlie 30, 2012

      Responsible Official: Willirun Archambeault, Nfltionul Business Ccnter, Acting Associute Oil'cclor,
      Acquisition Services Dircctomtc,




                                                                                44
   All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
Under Secretary of Defense for Acquisition, Technology,
and Logistics Comments




                               OFFICE OFTHE UNDER SECRETARY OF DEFENSE
                                                 3 000 DEFENSE PENTAGON
                                                WA SHINGTON. DC 203 0 1-3000


                                                                                                        ~l~1I   I 2 1011
    "'CQUI SIlION.
    Tf:CHN OLOOY
    AN D LOGISTlC 5


           MEMORAND U ~'l         FOR DEPUTY INSPECTOR GENERAL FOR A UOrn NG, DoOICi

           TIIROUGII: DIRECTOR. ACQUI SITION RESOURCES AND ANALYSIS                               ~\\~\1>
           SUBJECT; Respo nse to DuDlG Omit Report on DoD 's FY 2010 Purchases Made Through the
                            Dcpnrllllcni orlhe Interior (Project No. D2011-DOOOCF·0034.00)

                      As rr.:qucslcd, 1 mn providing responses 10 Ihe genera l content and recommendations
           containcd in the subject repo r!.

           l~ccomnlCndlltiun:
           We recommend thnt lhe Under Scc~lary of Dcfcnsc lor Acquisi lion, Technology nnd Logi stics
           instruct Dol) requesting aclivi lies to obtain ,lppro\';\1 from their I-I<-,ads of COli 1mCling lIllheir
           rcspcclivc contracting activities in situations whell Acqui sition Serv ices Dircctorate·I·lcrndon or
           Acquisition Services DircclOrutc·S icrra Vi sta intcnd to us(: other Federal 'Igcncies· contruc\s to
           nmkc purchases for DoD.

           Rl'snOIlSc:
           Concur. We share your COill.:erns Ihat the Department should be mindful orthe Ices paid to
           Ilss i ~ting ngelll:ics for their services and the lISC orthcir conlruet vchicles to meet 000
           requirements. Please note lhull)(.. rensc Fetkml Acquisition Reg ulation Supplement (DFARS)
           217.7802 requires 0 00 Components to establish and mnintnin procedures lor reviewing and
           approving, orders I}l:lccd for supplies and services under non-DoD conlmcls, whether Ihrough
           direct nequi si tion or lIssistccl acqu is itioll . Included in Ihese procedures is the requirclllcllttu
           assess the cosl eflhtivellcss ofthc approach. taking into tlccount di scount s and I~cs .

           UCCOIlllllcntl:lIion :
           lnilinte 1\ change to the Defcllse Fcdcml Acqui sition Rcgul:ltion Suppkmclltto include
           information contained in the Novcmber 24 , 2010, Ilnd April 27, 2011 , Under Secretary of
           De fense lor Acquisiti on. Technology and Logistics lllcJl10ntnda related to improving competition
           in Defense procurements.

           UCSPfll1SC
           Concur. The Dcp:lrtmcnt Iws generated multiple OFARS cllses in support of the Detter Buying
           Power initiatiw. Specificnlly Casc 20 11-001 J is directly related to improving competition ill
           DoD proeurcl1l(·nts. 11 imph:mcnt s a DoD Better Buying Power initiative to address using
           competitive procedures in procurements in which only one oni:r is received. The Defense
           Al:quisition Regulati on Council is illlhc process of complcting it s revicw of public commcnts
           nnd prcp;lring nlinal rule which is plnnn('d ror rclca ~c somclim(' in the ApriIlMa>' timclhullc.

                  ['lease contact ~• • • • • • • • • • • • • • • • • • • • • ir:lddili()nal
           inlormation is required .



                                                       ~I&'~)#
                                                       u-. Director, Defense Procurement
                                                               and Acqui~ition Policy




                                                                            45
   All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
Under Secretary of Defense (Comptroller)/Chief Financial
Officer Comments




                             OFF ICE O F Tt-JE UND E H SEC Il ET AR Y OF D E F EN SE
                                           1 100 D EFE t'>l $E f'E N1'AGO N
                                          WASH ING1 0 N , f.lC 2030 1 11 00



    CO M" 11l0 LlUf
                                                                                          FE O g :l!17
           MEMORANDUM FOR DEPUTY 11'SPECTOR GENERAL FOR AUDITING, IJEI'ARTM ENT
                            Of DEFENSE OFFICE OF INSPECTOR GENERAL

           SUBJECT: Response to Droll Audit Report, "DoD's FY 20 10 Purchases Made Througi\
                    the DcparllTlcnt of the Interior" (DoD (·rojcct No. D2011·IJOOOCF·0034.000)

                      This memurandum responds 10 recommendations mndc 10 the Under Secretmy of
           Defense (Complrollcr)/ChicfFinancltll Olliccr in the subject Department of Defense Office   or
           InSllcclor Genernl (OIG) dmn report . We concur with recommendations 11.1.B (Iud H.I.b,
           Dctnllcd rC5ponscs addressing the rccollU1lCnclntiollS Ufe uttnchcd.

                                                                               liiiiiiii,cpon.-
                                                            , jj/
                                                               r~1-
                                                             t\1ark E. caston
                                                            )~Cput)' Chi er Fin:mcial omccr

           Alluchment:
           As 51311.'<1




                                                                        46
   All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
Under Secretary of Defense (Comptroller)/Chief Financial
Officer Comments




             OFFICE OF THE UNllER SECIlETAIlV OF llEFENSE (COMI'l'1I0LLEII)
                     (OUSll(C) RESPONSES TO RECOMMENDATIONS

         llEI'ARTMENT OF llEFENSE (IlOD) OFFICE OF INSPECTOR GENERAL (OIG)
             DRAFT IlEPORT, "DOD'S FV 2010 PURCHASES MAllE THROUGH THE
                            DEPARTMENT OF THE INTEIlIOR"
                      (DOD I'ROJECr NO. 1l2011-DOOOCF·0034.000) and
                         (1l0l PROJECT NO. EIl-IN-NBC-OOOI-2011)


       RECOMMRNI>ATION n.l.n: We recommend thai the Under Secretary of Defense
       (Comptrollcr)/ChicfFinancialoflicef; u. Update the DoD Financial Management Regulation to
       stale that the bOlla fide needs rule and the OcxibiLity provided by section 24 1On. title 10,
       United Stotes Codc. applies cqualJy to Economy Act find non·Ecollomy Act orders. Specifically.
       the policy for Economy Act orders should be ch:mgcrl to Illulch thaI for non-Economy Act
       orders, requiring severable services to begin during the funds' period ofavailabilily.

       OUSDlC> RESPONSE O,l.a: The Office of the Deputy Chieffinollcinl OAicer (ODCFO) will
       update DoD FilUlI/C'ltll J..'kmagemclII Regulal/on (DuOPMR) Volume 11 A. Chulltcr 3, "ECOIIOIllY
       Act," nnd Chnptcr 18, "Non· Economy Act," to state that the bona fide needs rule I.md the
       llcxibility provided by 10 u.s.c § 241 O(a) npplies equally to Economy Act find non·Economy
       Act orders.


       RECOMMENDATION n.t.h: We recollllllend that the Under Secretary of Defense
       (Colllplrollcr)/Chlef Financial officer: h. Instruct 000 Components to follow existing guidance
       on the need to be specific in defining I"equirements, including Il clear description of the services
       or goods b>:ing purchnscd and u period ofllcrformnnce, when they prepare military
       interdepartmental purchase rcqucsts.

       OUSI)(C) RESl'ONSE B.1.b: The onera will issue a policy memorandum 10 remind
       Components to ndhere to existing guidance ill DoDFMR Volume IlA, Chapler 3, Paragraph
       030401 , and Chapter 18. Paragmph 180203A.




                                                                                                Attachment




                                                                    47
   All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
Department of the Army Comments





                                     DEPARTMENT OF THE E,RMY
                               OFFICE OF THE ASSISTANT SECRI::TAR OF THE ARMY
                                  FINANCIAL MANAGEMENT AND CO !)TROLLER
                                             109 ARMY PENTAGON
                                         WASHINGTON DC 20310-0'09
                ~~PLYTO
                ATTENTION OF




     MEMORANDUM THRU Auditor General, Department of the Army, 3101 Park Center
     Drive, Alexandria, Virginia 22302-1596

     FOR Inspector General, Department of Defense, Defense Business Operations, 400 Army
     Navy Drive, Arlington, Virginia 22202-4704

     SUBJECT: Department of Defense Inspector General Draft Report, Purchases Made
     Through the Department of the Interior (Project No. D2011-DOOOCF-0034.000)


      1. We appreciate the opportunity to comment on Recpmmendation 8-2 in the subject
      Report.

      2. The draft report advises that Army should oversee~he adjudication of suspected bona
     fide needs issues related to award of five contracts fo severable services in Fiscal Year
     (FY) 2010. We are in the process of doing this. In re ponse to the discussion draft, we
     issued memoranda on August 17, 2011 directing the ppropriate commands to provide us
                                  Click to add JPEG file
     with additional information on these contract actions a d report any suspected violations to
     this office.

      3. Our initial review of the Army National Guard   cantlet
                                                              indicates that the contract was
      funded correctly and was a bona fide need of FY 201 . Our review of the other contracts
      is ongoing. The remaining reviews will be completed n the next 90 days.




                                       Deputy




    All redactions are 5 U.S.C. § 552 (b)(6)48of the FOIA, unless otherwise stated.
DoD OIG Report No. DODIG-2012-072                            DOI OIG Report No. ER-IN-NBC-0001-2011




                                            U.S. Department of Defense  
                                           Office of the Inspector General 
                                              4800 Mark Center Drive 
                                                   Suite 13F25‐04 
                                            Alexandria, VA 22350‐1500 
                                                             
                                          U.S. Department of the Interior 
                                           Office of the Inspector General 
                                                    MS4428 – MIB 
                                                  1849 C Street, NW 
                                               Washington, DC 20240 
                                                             
                  This report is available online at: http://www.dodig.mil and also available at:                   
                                 http://www.doioig.gov/report‐database/reports  




       All redactions are 5 U.S.C. § 552 (b)(6) of the FOIA, unless otherwise stated.
